Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
April 1, 2009 – September 30, 2009
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning process
commits us to addressing these critical issues. The following table briefly describes the challenges
we have identified for GSA and references related work products issued by the GSA OIG and dis-
cussed in this semiannual report

CHALLENGES                 BRIEF DESCRIPTION OF CHALLENGE                               PAGE

ACQUISITION                GSA’s procurement organization awards and administers          2
PROGRAMS                   government-wide contracts worth $100 billion. With
                           growing programs and shrinking numbers of qualified
                           acquisition personnel, attention to important fundamentals
                           such as ensuring competition, meaningful price analysis,
                           and implementation of statutory and regulatory
                           compliance-type requirements has diminished.

INFORMATION                Technology applications have increased exponentially           10
TECHNOLOGY                 as “E-Gov” is used to better manage operations and
                           interface with the public, but complex integration and
                           security issues exist.

MANAGEMENT                 Management controls have been streamlined, resulting           16
CONTROLS                   in fewer and broader controls, making it essential that
                           the remaining controls be emphasized and consistently
                           followed. The need for strong internal controls underlies
                           several of the other management challenges.

PROTECTION OF              GSA is responsible for protecting the life and safety of       No
FEDERAL FACILITIES         employees and public visitors in Federal buildings. The        Reports
AND PERSONNEL              increased risks from terrorism have greatly expanded the       This
                           range of vulnerabilities. A broadly integrated security        Period
                           program is required.

HUMAN CAPITAL              GSA has an aging workforce and is facing significant loss      No
                           of institutional knowledge due to retirements, including a     Reports
                           loss of key management staff over the past year. Better        This
                           recruitment and training programs are needed to develop        Period
                           the 21st century workforce.

FEDERAL                    Faced with an aging, deteriorating inventory, GSA is           20
BUILDINGS                  challenged in making the best use of available funds
FUND                       to deliver high performance workplaces on schedule
                           and within budget.
                              Foreword



I am pleased to provide this report to the people of the United States and their elected
representatives in Congress. The Office of Inspector General (OIG) at GSA has been working
successfully to identify and prevent waste, fraud, and abuse in connection with the
programs and operations of GSA. This reporting period, we issued 98 audit reports and
identified over $282 million in funds recommended for better use and questioned costs. We
also made 266 referrals for criminal prosecution, civil litigation, and administrative action—
activities valuable in their own right, as well as for their deterrent effect. In this reporting period
GSA achieved savings totaling over $466 million from management decisions on audit findings
and from civil settlements and investigative recoveries.

Notable during this reporting period was the $128 million civil settlement with NetApp, Inc.,
for alleged false claims and contract fraud in connection with the sale of information
technology products and services. NetApp is the largest Multiple Award Schedule contract
fraud settlement that GSA has ever obtained. Almost $24 million in contract fraud settlements
were obtained during this reporting period from other companies.

The Recovery Act provides GSA with $5.5 billion in construction funding, its single largest
amount ever, which must be obligated within a relatively short timeframe. This reporting
period, we developed a risk assessment of GSA’s Recovery Act implementation, and
began reviews of major construction and high performance “green building” projects and
the Department of Homeland Security headquarters project. In addition to oversight
reviews, we have provided contract audit support through 32 reports and memoranda on
reviews of contractors’ proposals.

During this reporting period, I offered Congressional testimony on contracting oversight
and Recovery Act issues. Our office took the lead in helping to prevent fraud by providing
fraud awareness training in conjunction with the U.S. Department of Justice to over 1,200
individuals in GSA’s Headquarters and 11 regions. We also received four contractor
disclosures under the Federal Acquisition Regulation rule implementing the Close the
Contractor Fraud Loophole Act, P.L.110–252.

We remain committed to assisting GSA to accomplish its mission with efficiency,
effectiveness, and economy. By their steady record of accomplishment, OIG employees
continue to show a dedication to effective public service of which our nation can be proud. I
commend our employees for their professionalism and performance in discharging their
duties and upholding the law. I also recognize the continued strong support of Congress,
OMB, and employees throughout GSA.
.




Brian D. Miller
Inspector General
September 30, 2009




                                                                 April 1, 2009 – September 30, 2009 i
          Table of Contents

                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xiii

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

   Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

   Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

   Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16

   Federal Buildings Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20

   New Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .26

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .37

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .43

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .45

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . . .53

Appendix II – Audit Report Register . . . . . . . . . . . . . . . . . . . . . . . . .57

Appendix III – Audit Reports over 12 Months Old, Final Agency
               Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .68

Appendix IV – Government Contractor Audit Findings . . . . . . . . . . .72

Appendix V – Audits Without Management Decision . . . . . . . . . . . .73

Appendix VI – Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . .74

Appendix VII – Reporting Requirements . . . . . . . . . . . . . . . . . . . . .75

Appendix VIII – OIG Offices and Key Officials . . . . . . . . . . . . . . . . .76

This semiannual report may be accessed on the Internet at the following
address: http://www.gsaig.gov




                                                               April 1, 2009 – September 30, 2009 iii
                      Summary of OIG Performance

                       April 1, 2009 – September 30, 2009

OIG Accomplishments    Total financial recommendations                               $282,423,231

                       These include:

                       • Recommendations that funds be put to better use             $268,888,227

                       • Questioned costs                                            $ 13,535,004

                       Audit reports issued                                                      98

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                                    266

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                    $466,476,422

                       Indictments and informations on criminal referrals                        40

                       Cases accepted for criminal prosecution                                   29

                       Cases accepted for civil action                                            9

                       Successful criminal prosecutions                                          36

                       Civil settlements                                                          8

                       Contractors/individuals suspended and debarred                           122

                       Employee actions taken on administrative referrals                        23
                       involving GSA employees




                                                                    April 1, 2009 – September 30, 2009 v
                                         Fiscal Year 2009 Results



                                       During Fiscal Year 2009, OIG activities resulted in:
                                       • Over $599 million in recommendations that funds be put to better use and
                                         in questioned costs. If adopted, these recommendations ultimately result in
                                         savings for the taxpayer.

                                       • 154 audit reports that assisted management in improving the efficiency and
                                         effectiveness of Agency operations.

                                       • Almost $918 million in management decisions agreeing with audit
                                         recommendations; $210.2 million in criminal, civil, administrative, and other
                                         recoveries.

                                       • 228 new investigations opened and 204 cases closed.

                                       • 75 case referrals (112 subjects) accepted for criminal prosecution and 23
                                         case referrals (44 subjects) accepted for civil litigation.

                                       • 101 criminal indictments/informations and 91 successful prosecutions on
                                         criminal matters referred.

                                       • 13 civil settlements.

                                       • 42 employee actions taken on administrative referrals involving GSA
                                         employees.

                                       • 150 contractor/individual suspensions and 62 contractor/individual
                                         debarments.

                                       • 2,746 Hotline calls and letters received of which 138 were referred for
                                         criminal or civil investigations, 91 were referred to other agencies for follow
                                         up, and 225 were submitted to GSA for review and appropriate
                                         administrative actions.




vi Semiannual Report to the Congress
     Executive Summary



During this semiannual period, the OIG continued to direct its auditing and
investigative resources toward what it has identified as the major
management challenges facing GSA. The OIG conducted audit reviews and
investigations to ensure the integrity of the Agency’s financial statements,
programs, and operations, and to ensure that the taxpayers’ interests were
being protected. The OIG also continued to initiate actions to prevent fraud,
waste, and abuse, and to promote economy and efficiency throughout GSA.

The OIG’s resources have been directed specifically toward conducting
preaward, financial, and programmatic audits; management control
assessments; contract reviews; investigations of fraud, abuse, and related
actions by GSA employees and government contractors; and litigation
support in civil fraud actions, enforcement actions, criminal prosecutions,
contract claims, and administrative actions, all in an effort to maintain the
integrity of GSA programs.

Management Challenges
The OIG continued to strive to provide the high level of quality in reviews and
recommendations for which it is known, and which it believes necessary in order
for GSA to continue leading the government in contracting and procurement.
During this semiannual period, the focus has been on acquisition programs,
information technology, management controls, the federal buildings fund, and
new initiatives. The following are significant audits and reviews that identify
major issues facing GSA.

Acquisition Programs
Significant Preaward Reviews and Other Audits. The OIG’s preaward
review program provides information to contracting officers (COs) for use in
negotiating contracts. This period, the OIG performed preaward reviews of 74
contracts with an estimated value of $8.1 billion. We recommended that more
than $268 million be put to better use. During this reporting period, management
decisions were made on 29 preaward reports, which recommended that over
$303 million be put to better use. Management agreed with 99.7 percent of
the recommended savings (page 2).

Inconsistencies in Implementing MAS Program Policy. GSA’s Multiple
Award Schedule (MAS) Program consists of 38 schedules administered by
nine Acquisition Centers (Centers). The OIG conducted an audit to determine
whether the Centers are effectively implementing the pricing guidance that
governs the MAS Program, including guidance on rate escalation and price
adjustment. The auditors found inadequate and inconsistent documentation
and implementation of Most Favored Customer pricing; inconsistent or
inaccurate application of price escalations to contracts that reduced the
government’s price protections; and a generally inadequate degree of
national oversight control, leading to inconsistency between the Centers
(page 3).




                                             April 1, 2009 – September 30, 2009 vii
                                              Executive Summary



                                         Improving Resource Allocation and Feedback in GSA’s PMR Program.
                                         The GSA Office of the Chief Acquisition Officer (OCAO) created a Procurement
                                         Management Review (PMR) Division in 2004, which conducts peer reviews of
                                         GSA contracting activities and makes recommendations for improvement in
                                         acquisitions. OIG auditors evaluated whether the PMR program was effective
                                         in identifying and improving deficiencies in acquisition practices, and whether
                                         the OCAO has an effective means of measuring the effectiveness of the PMR
                                         program. The auditors concluded that the PMR program could better allocate
                                         its limited resources to GSA’s higher-risk contracting activities; improve its
                                         communication and implementation of recommended improvements; and refine
                                         the Outcome Analysis Tool it uses to evaluate contracting activities (page 5).

                                         Possible Improvements in FAS Performance Measures for MAS Program.
                                         The OIG conducted an audit to determine whether the Federal Acquisition
                                         Service (FAS), which oversees the Centers that administer the MAS Program,
                                         has adequate performance measures to determine whether MAS contracting
                                         officers are achieving high contract quality, including obtaining the lowest-cost
                                         alternative for the government’s needs. The audit found that the measures of
                                         customer satisfaction are sufficient. However, FAS should still strengthen price-
                                         related performance measures and measures of compliance with applicable
                                         laws, regulations, and guidance (page 6).

                                         Appropriate and Inappropriate Redundancies in GSS Programs. GSA’s
                                         Office of General Supplies and Services (GSS) requested that the OIG
                                         perform an audit to help address concerns in a 2007 Office of Management and
                                         Budget PART analysis. It identified that unnecessary duplication exists
                                         between two GSS business lines, the MAS Program and GSA Global Supply.
                                         The auditors concluded that while duplication exists, it is appropriate because
                                         the programs provide different levels of service and thus address different
                                         customer needs. However, there is unnecessary duplication within the MAS
                                         Program. This could be addressed by full implementation of the changes
                                         indicated by FAS’s several studies and initiatives over the last decade (page 8).

                                         Information Technology (IT)
                                         Improvements in GSA’s Internal IT Services Contract. GSA has undertaken
                                         an Infrastructure Technology Global Operations initiative to consolidate its
                                         internal contracts for desktop computing, networking, messaging, and other
                                         services, in order to maximize consistency and efficiency. The auditors
                                         determined that GSA could improve the initiative by undertaking more precise
                                         cost savings measures, ensuring day-to-day consistency in the tech support
                                         program, and, in particular, by monitoring possible security threats and
                                         developing a plan for responding to IT security incidents (page 10).

                                         Security Weaknesses in Agency Information Systems. The Federal
                                         Information Security Management Act of 2002 requires OIGs to perform an
                                         annual independent evaluation of their agencies’ information security programs.
                                         The OIG reviewed five systems in this period. Auditors identified four major
                                         areas in which information security could be improved. These include ensuring
                                         that system security plans cover all agency systems, including minor
viii Semiannual Report to the Congress
     Executive Summary



applications; restricting access to sensitive and personally identifiable
information to those with a need to know; preventing employees from creating
unauthorized social networking websites on the GSA internal network; and
providing contractor employees working on GSA electronic information systems
with security awareness and privacy training (page 12).

Management Controls
Greater Oversight Needed in Federal Surplus Property Donation Program.
The Office of Personal Property Management within FAS determines whether
personal property no longer needed by federal agencies is needed for another
purpose within the federal government; if not, the property is available for
donation to state and local public agencies through State Agencies for Surplus
Property (SASPs). The OIG performed an audit to determine whether the
Office of Personal Property Management is adequately overseeing SASPs
and whether donated property is being allocated appropriately. The auditors
concluded that GSA needs to undertake more effective oversight and corrective
action over SASPs to ensure that they comply with donation program
requirements. Auditors also found inadequate documentation and recording
of donations (page 16).

Inadequate Controls over Compliance with Lease Authorization
Requirements. Real estate leases for federal agencies must be authorized
by Congress if the annual rent exceeds a certain threshold; authorization is
obtained by submitting a “prospectus” on the lease to Congress. The OIG
performed an audit to determine whether the Public Buildings Service has
sufficient controls in place to keep leasing transactions consistent with
prospectus requirements. The audit found a number of control weaknesses,
including inadequate guidance regarding whether lease modifications require
a separate authorization, inappropriate splitting of real estate requirements to
avoid the rent threshold, and improper use of fast-track leasing procedures
for transactions that exceeded the prospectus threshold (page 18).

Federal Buildings Fund
Weaknesses in Cost Estimates for Los Angeles Courthouse Alternatives.
After cancellation of the construction of a brand-new federal courthouse in
Los Angeles, GSA provided cost estimates on various alternatives for meeting
the court’s space needs to Congress, the Administrative Office of the U.S.
Courts, and the Office of Management and Budget. Congress requested that
the OIG determine whether these estimates are validly derived. The auditors
concluded that the Public Buildings Service used different methodologies for
the cost estimates, and that elements of some cost estimates were uncertain
or even subjective, and, in some cases, based on miscalculations (page 20).

New Initiatives
New FAR Rule on Contractor Disclosures. Last reporting period, a new
Federal Acquisition Regulation rule went into effect requiring contractors to
disclose significant overpayments, False Claims Act violations, and certain
federal criminal offenses in conjunction with government contracts. During
this reporting period, the OIG has received four contractor disclosures. OIG

                                             April 1, 2009 – September 30, 2009 ix
                                           Executive Summary



                                      components are working together internally, and the OIG is working closely
                                      with GSA acquisition personnel, to ensure that disclosures are promptly and
                                      properly reviewed and resolved (page 21).

                                      Recovery Act Oversight. The American Recovery and Reinvestment Act
                                      (Recovery Act) appropriated almost $6 billion to GSA for programs to create
                                      jobs and stimulate the economy, including remodeling federal buildings to
                                      achieve greater energy efficiency, constructing land ports of entry, and
                                      acquiring more fuel-efficient government vehicles. The Recovery Act also
                                      appropriated $7 million to the OIG for oversight of these new programs. The
                                      OIG has already issued a risk assessment of GSA’s implementation of its
                                      Recovery Act programs and an audit report evaluating the comprehensiveness
                                      of GSA’s project plans for construction and renovation under the Recovery
                                      Act, and, in cooperation with the Defense Contract Audit Agency, completed
                                      32 audits of contractor proposals for Recovery Act projects (page 23).

                                      Promoting and Protecting Integrity
                                      GSA is responsible for providing working space for one million Federal
                                      employees. The Agency also manages the transfer and disposal of excess and
                                      surplus real and personal property, and operates a government-wide service
                                      and supply system. To meet the needs of customer agencies, GSA contracts
                                      for billions of dollars worth of equipment, supplies, materials, and services each
                                      year. When systemic issues are identified during investigations, they are shared
                                      with GSA management for appropriate corrective actions. During this period,
                                      criminal, civil and other monetary recoveries totaled almost $156 million.

                                      Significant Civil Actions and Criminal Investigations
                                      Civil Settlements. NetApp, Inc., agreed to pay the government $128 million,
                                      plus interest, following an investigation of alleged false claims and contract
                                      fraud (page 26). This is the largest contract fraud settlement GSA has ever
                                      obtained. Dynamics Research Corporation agreed to a $15 million settlement
                                      with the United States to settle allegations of a fraudulent kickback scheme
                                      (page 27). A federal court entered a consent judgment, pursuant to which
                                      Lighthouse Disaster Relief will pay the United States $4 million, and relinquish
                                      $1.66 million in garnished funds, for breach of its contract to provide services
                                      in support of Hurricane Katrina disaster relief (page 28). The United States won
                                      a $2.3 million judgment against the owner and president of Pacific General,
                                      Inc., for submitting false claims (page 28). In separate cases, L-3 Government
                                      Services, Inc., agreed to pay almost $2 million to the United States; University
                                      Loft Company agreed to pay $400,000; and Booz, Allen & Hamilton, Inc.,
                                      agreed to pay $325,000, to resolve false claims allegations (pages 28-29).

                                      Bribery and Blackmail. Following an investigation into a scheme in which
                                      federal employees received money and other items in exchange for directing
                                      task orders to Computer Giants, four federal employees pled guilty to theft,
                                      fraud, and conspiracy to commit bribery, and sentenced to 20 months, 15
                                      months, 34 months, and 18 months of imprisonment, and ordered to pay a


x Semiannual Report to the Congress
     Executive Summary



total of $76,658 in restitution. A former Computer Giants employee was
sentenced to 27 months’ incarceration and ordered to pay $22,100 in restitution
in connection with the same scheme (page 29). A federal employee was
convicted of steering contracts to Escarnio Construction and Fischer Supply,
both controlled by the same attorney, in exchange for bribes. Both the federal
employee and the attorney pled guilty to bribery and to falsifying the federal
employee’s tax return; each was sentenced to 2 years’ incarceration and 2
years’ probation (page 30). Two Social Security Administration employees
made threatening phone calls to a GSA employee threatening to disclose
derogatory information about him to his supervisors if he did not pay them
money. Both pled guilty; one was sentenced to 2 years’ supervised release,
the other to 1 year of probation and a $2,000 fine (page 35).

Theft and Embezzlement. A GSA employee pled guilty to theft and
embezzlement of $539,549.44 of government funds, which he caused to be
paid to his fictitious company. He was sentenced to 37 months’ incarceration
and ordered to repay the stolen funds (page 31). The president of the
National Center for Employment of the Disabled pled guilty to embezzling
millions of dollars of government funds from the organization, making false
statements, fraud, and preparing a false tax return; he has not yet been
sentenced (page 31). A Mission Valley Auto employee pled guilty to taking
Voyager credit cards from government vehicles awaiting repair and purchasing
gas with them. He was sentenced to 5 years’ probation and ordered to pay
$4,343 in restitution (page 32). The OIG also recovered one item of lost or
stolen Works Progress Administration artwork during this period (page 35).

Fraud and False Statements. An Illinois township Road Commissioner pled
guilty to mail fraud after selling Federal Emergency Management Agency
travel trailers to friends and family members. He was sentenced to 30 days’
confinement and a $10,000 fine (page 33). Two employees of a car repair
company signed a Pretrial Intervention Agreement that they pay $13,986 in
restitution and serve 2 years’ probation each, after they fraudulently billed
GSA for 1,080 unnecessary oil changes to government vehicles (page 32). A
former GSA employee pled guilty to making false statements in order to obtain
employment with GSA, and was sentenced to 6 months’ home confinement
and 3 years’ probation (page 33). The owner of JB Auto Restoration was
found guilty of making false statements in connection with making excessive
repairs to government vehicles, and was sentenced to 6 months’ incarceration
and 3 years’ supervised release. The U.S. Postal Service employee who had
funneled the excessive work to the repair shop was acquitted of conspiracy
charges (page 33). A GSA contractor pled guilty to making false claims for
certifying that he had paid his subcontractors when he had not. He was
sentenced to 5 years’ probation and ordered to pay restitution (page 34). A
GSA contractor employee submitted fictitious quotes for GSA contracts in
order to direct work to his employer. He pled guilty to tampering with government
records and received deferred adjudication, and was sentenced to 4 years’
probation (page 34).



                                             April 1, 2009 – September 30, 2009 xi
                                             Executive Summary



                                        Suspension and Debarment – Highlights
                                        During this reporting period, the OIG made 128 referrals for consideration of
                                        suspension/debarment to the GSA Office of Acquisition Policy. GSA issued
                                        122 suspension and debarment actions based on current and previous OIG
                                        referrals (page 35).

                                        Integrity Awareness – Highlights
                                        The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                        employees on their responsibilities for the prevention of fraud and abuse and
                                        to reinforce employees’ roles in helping to ensure the integrity of Agency
                                        operations. This period, we presented 64 briefings attended by 2,334 regional
                                        and Central Office employees (page 36).

                                        OIG Hotline – Highlights
                                        During this reporting period, we received 1,441 Hotline contacts. On the basis
                                        of these contacts, 276 Hotline cases were initiated. In 119 of these cases,
                                        referrals were made to GSA program officials for review and action as
                                        appropriate; 48 were referred to other Federal agencies for follow up; 83 were
                                        referred for OIG criminal/civil investigations or audits; and 26 did not warrant
                                        further review (page 36).

                                        Summary of Results
                                        The OIG made over $268 million in financial recommendations to better use
                                        government funds; made 130 referrals for criminal prosecution, civil litigation,
                                        and administrative actions; reviewed numerous legislative and regulatory
                                        actions; issued 83 subpoenas; and received 1,441 Hotline contacts. This
                                        period, we achieved savings from management decisions on financial
                                        recommendations, civil settlements, and investigative recoveries totaling over
                                        $466 million.




xii Semiannual Report to the Congress
                                OIG Organization Chart


                                       Inspector General
                                         Brian D. Miller
                                    Deputy Inspector General
                                       Robert C. Erickson

      Office of Counsel to the IG                               Office of Internal Evaluation & Analysis
              Richard Levi                                                   Peter J. Coniglio
           Counsel to the IG                                                     Director

                                                                      Office of Forensic Auditing
                                                                          Patricia D. Sheehan
                                                                                 Director


Office of Administration                  Office of Audits                     Office of Investigations
 Carolyn Presley-Doss                   Theodore R. Stehney                        Gregory G. Rowe
 AIG for Administration                   AIG for Auditing                      AIG for Investigations


  Budget, Planning, and                    Audit Operations Staff
                                                                                    Investigations Operations
  Financial Management                                                                       Division
         Division                            Administration &
                                            Data Systems Staff
 Facilities and Contracts                                                                Regional Offices
          Division                                                                        Washington, DC
                                           Special Projects Office
                                                                                            New York
                                                                                             Atlanta
    Human Resources                            Information                                   Chicago
                                          Technology Audit Office                          Kansas City
       Division
                                                                                            Fort Worth
                                                                                          San Francisco
                                               Real Property                                 Auburn
 Information Technology                         Audit Office
        Division
                                          Finance & Administrative
                                                                                             Sub-Offices
                                                Audit Office
                                                                                                Boston
                                                                                                Denver
                                            Acquisition Programs                              Los Angeles
                                                Audit Office                                     Miami
                                                                                              Philadelphia
                                            Contract Audit Office

                                             Field Audit Offices
                                               Washington, DC
                                                 New York
                                                Philadelphia
                                                  Atlanta
                                                  Chicago
                                                Kansas City
                                                 Fort Worth
                                               San Francisco


                                                                         April 1, 2009 – September 30, 2009 xiii
(This page was intentionally left blank.)
                                  OIG Profile



Organization          The GSA OIG was established on October 1, 1978 as one of the original 12
                      OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

                      The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative organization staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations through
                        program reviews, assessments of management controls, and financial,
                        regulatory, and system audits. The office conducts external reviews in
                        support of GSA contracting officials to carry out their procurement
                        responsibilities and obtain best value for Federal customers and the
                        American taxpayers. The office also provides other services to assist
                        management in evaluating and improving their programs.

                      • The Office of Investigations, an investigative organization that conducts
                        a nationwide program to prevent, detect, and investigate illegal and/or
                        improper activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative and regulatory review.

                      • The Office of Internal Evaluation and Analysis, a multidisciplinary staff that
                        conducts operational assessments of the OIG components and their field
                        offices; performs special projects for the Inspector General, including
                        research and analysis; provides advice to the Inspector General; and
                        conducts reviews and investigations internal to the OIG. It contains the
                        Office of Forensic Auditing, an independent team that combines auditing
                        and investigative techniques to utilize innovative detection strategies, assess
                        fraudulent situations, and produce evidence meeting the standard of proof
                        required by criminal courts.

                      • The Office of Administration, a professional staff that provides information
                        technology, budgetary, administrative, personnel, and communications
                        support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, DC, at GSA’s Central Office
                      Building. Field offices are maintained in Atlanta, Boston, Chicago, Denver,
                      Fort Worth, Kansas City, Los Angeles, Miami, New York, Philadelphia, San
                      Francisco, Auburn, WA, and Washington, DC. (A contact list of OIG offices
                      and key officials is provided in Appendix VIII.)

Staffing and Budget   As of September 30, 2009, our on-board staffing level was 316 employees. The
                      OIG’s FY 2009 budget is $58.1 million, which includes $3.25 million in
                      reimbursable authority and $800,000 in funds appropriated under the American
                      Recovery and Reinvestment Act of 2009.


                                                                   April 1, 2009 – September 30, 2009 1
                                       Management Challenges



                                      Each year since 1998, we have identified and shared with Congress and senior
                                      GSA management what we believe to be the major challenges facing the
                                      Agency. (The current list is summarized on the front inside cover.) This period
                                      we continued our work in addressing these challenges, making
                                      recommendations, and working with management to improve Agency
                                      operations. The following sections highlight our activities in these areas.

                                      Acquisition Programs
                                      GSA provides Federal agencies with products and services valued in the billions
                                      of dollars through various types of contracts. We conduct reviews of these
                                      activities to ensure that the taxpayers’ interests are protected.

                                      Significant Preaward Reviews and Other Audits
                                      The OIG’s preaward review program provides information to contracting officers
                                      for use in negotiating contracts. The pre-decisional, advisory nature of preaward
                                      reviews distinguishes them from other audits. This program provides vital and
                                      current information to the contracting officers, enabling them to significantly
                                      improve the government’s negotiating position and to realize millions of dollars
                                      in savings on negotiated contracts. This period, the OIG performed preaward
                                      reviews of 74 contracts with an estimated value of $8.1 billion. We recommended
                                      that more than $268 million of funds be put to better use. Three of the more
                                      significant Multiple Award Schedule (MAS) contracts we reviewed had projected
                                      government-wide sales totaling more than $2.9 billion. The review findings
                                      recommended that $183 million in funds be put to better use. The reviews
                                      disclosed that these vendors offered prices to GSA that were not favorable and
                                      discounts that were not as favorable as the discounts other customers received
                                      from these vendors. For example, one vendor for services overstated its cost
                                      build-up rates because it did not include all of its direct labor employees in its
                                      calculations, did not account for uncompensated overtime for direct labor
                                      employees, and applied an unsupported inflation factor to the rates. Another
                                      vendor for services did not provide complete information, and the labor rates
                                      on its MAS contract were overstated when compared to its actual employees’
                                      rates. Finally, one vendor disclosed incomplete and inaccurate information about
                                      discounts to commercial customers and to state, local, and educational
                                      customers.

                                      There are more than 17,500 MAS contracts with over $38 billion in business
                                      annually under GSA’s procurement programs. Past history has shown that for
                                      every dollar invested in preaward contract reviews, at least $10 in lower prices
                                      or more favorable terms and conditions are attained for the benefit of the
                                      government and the taxpayer. The Office of Management and Budget (OMB)
                                      has long recognized the increasing dollar value of GSA’s contract activities and
                                      our limited resources in providing commensurate audit coverage. Since 2004,
                                      through the Federal Acquisition Service (FAS) contract program revenue, OMB
                                      officials have provided us additional financial support to increase our work in
                                      this area. These funds enabled us to hire additional staff to support expanded
                                      contract review activities including, primarily, an increase in preaward contract


2 Semiannual Report to the Congress
    Management Challenges



Acquisition Programs (continued)
reviews, as well as more contract performance reviews that evaluate contractors’
compliance with pricing, billing, contract terms, and periodic program evaluations
to assess the efficiency, economy, and effectiveness of contracting activities.
Starting in FY 2010, OMB will be providing this additional support in direct
appropriations to the OIG to provide continued service in this area. We will
continue to work closely with FAS to develop preaward and contract performance
assessment programs that strengthen government-wide contracts and provide
value for the taxpayers. During this reporting period, management decisions were
made on 29 of the preaward reports, which recommended that over $303 million
of funds be put to better use. Management agreed with 99.7 percent of the
recommended savings.

Review of Consistency in Implementing Policy Across Acquisition Centers
Report Number A070118/Q/A/P09007, dated September 30, 2009

The MAS Program is one of the GSA’s largest procurement programs. It is
operated by nine Acquisition Centers (Centers) that award and administer
contracts under 38 schedules. The Office of Acquisition Management within the
FAS is responsible for issuing the national operating and negotiating procedures
and policy guidance for all of the Centers. GSA’s Office of the Chief Acquisition
Officer (OCAO) also issues national procurement guidance. Additionally, there
is schedule, Center, and portfolio specific guidance available for acquisition
personnel. Subsequent to our fieldwork, FAS announced the creation of the MAS
Program Office with responsibilities that include developing and implementing
MAS acquisition policy and guidance. The objectives of our review were to
determine if policy and related guidance for the MAS Program are being
implemented effectively by the Centers, and to identify best practices in use by
the Centers. We narrowed the focus of these objectives to the area of pricing,
including rate escalation and price adjustment.

Our review found opportunities for the Centers to improve the consistency of
implementing procurement policy and related guidance when making deter-
minations of fair and reasonable pricing and when conducting negotiations.
While the contract file documentation that we reviewed consistently indicated
that Most Favored Customer (MFC) pricing was targeted for negotiations per
regulation, adequate support for this assertion was not always available. Of the
24 contract files we reviewed containing price analyses, each asserted that MFC
pricing was targeted for negotiations. However, support for this assertion varied
widely and in several cases adequate support was not available. For 8 contracts
we did not find invoices in the contract files to substantiate MFC pricing and, in 6
of the 161 contracts that contained support, invoices were either not provided in a
form that was comparable to the Commercial Sales Practices (CSP) form or the
information was not timely or credible. Some determinations of price

1
    GSA Office of Inspector General audit reports were available as support for three of the
    contracts we evaluated.


                                                    April 1, 2009 – September 30, 2009 3
                                       Management Challenges



                                      Acquisition Programs (continued)

                                      reasonableness were based solely on the offeror’s assertion that government
                                      pricing bettered MFC pricing without substantiation of these rates or further
                                      comparison to the market place. Also, to facilitate price analyses when assessing
                                      wage rates for offered labor categories, one Center relied on a flawed pricing
                                      tool. Additionally, some acquisition personnel informed us that they are not
                                      allowed to use cost analysis when considering offers under the MAS Program, a
                                      position with which we disagree. Further, we found inconsistent or inaccurate
                                      application of price escalations to contracts that reduced the government’s price
                                      protections or may be confusing to the agencies using the MAS Program.
                                      Differing policy interpretations, increased demands on acquisition personnel, and
                                      the need for improved communication and oversight contributed to instances
                                      when the government did not have assurance of price reasonableness.

                                      We identified controls at both the national and Center level designed to
                                      ensure the implementation of procurement policy and guidance. However, we
                                      found some instances when these controls were not applied. A lack of clearly
                                      defined responsibilities within the new FAS organization appears to have
                                      effectively neutralized national oversight control and may also have impacted
                                      sharing best practices between the Centers. While Center controls were in place
                                      and used, we found cases where they did not accomplish their intended
                                      purpose, resulting in potential harm to the government. We also noted isolated
                                      instances of inaccurate contractor postings on GSA Advantage, one of which
                                      may have resulted in overcharges to the government of more than $590,000.
                                      In addition, we noted that the Centers are using a variety of procurement and
                                      operational business practices, such as negotiating volume discounts. Some
                                      of these practices appear transferable and could be considered best practices.

                                      We recommended that the Commissioner of the Federal Acquisition Service:

                                      • Develop and implement policy and training for acquisition personnel including:

                                        o MFC pricing determination that employs methodologies commensurate
                                          with the value and risk of the acquisition.
                                        o Use of cost analysis, including a clear definition of cost or pricing data in
                                          relation to information requested on the CSP form and for Office of
                                          Inspector General pre-award audits.
                                        o Proper use of GSAM 552.216-70 as the Economic Price Adjustment
                                          clause when Commercial Price Lists contain more than base year rates.
                                        o Schedule specific guidance to assist in determining wage rate escalation,
                                          including when escalation is appropriate, specific index selection, time
                                          periods for consideration, and application timeframe.
                                        o Consideration of volume discounts during negotiation when offerors’
                                          practices include these discounts for their commercial customers, so as
                                          to maximize the government’s purchasing power.




4 Semiannual Report to the Congress
 Management Challenges



Aquisition Programs (continued)

• Assess the viability of developing or establishing resources at the national
  level to support contracting officers in all the Centers by providing cost/price
  analyses and support, particularly in the area of professional services.

• Fully implement FSS Acquisition Letter FX-03-1, updated through Supplement
  No. 3, dated February 18, 2005, ensuring these responsibilities are all clearly
  defined within the FAS organization. Additionally, consider performing an
  assessment as to whether control functions of the legacy Federal Supply
  Service and Federal Technology Service organizations have been adequately
  transitioned to the new FAS organization to enhance organizational
  performance and accountability.

• Develop and implement controls to ensure the accuracy of contract
  information published on GSA Advantage such as approved Special Item
  Numbers (SINs), authorized pricing, etc. Determine if potential overcharges
  of $590,000 occurred and, if so, institute actions to recover funds.

The FAS Commissioner partially concurred with the report findings and
recommendations.

Review of the GSA OCAO’s Procurement Management Review Process
Report Number A080121/O/A/F09012, dated September 30, 2009

GSA’s OCAO is charged with strengthening the acquisition activities of GSA
so that GSA can provide customers with acquisition support while emphasizing
compliance, ethics, and integrity in contracting. In 2004, the OCAO created its
Procurement Management Review (PMR) Division and initiated Procurement
Management Reviews (PMRs). This Division coordinates with Agency
professionals from various acquisition specialty areas within GSA to conduct
periodic peer reviews of GSA contracting activities and make recommendations
to management for improvement. The PMR Division also follows up on
management action plans and compiles and analyzes data from its peer
reviews. PMRs, if conducted effectively, can benefit acquisition personnel and
management throughout GSA. The audit objectives were to determine whether
(1) the PMRs are effective in identifying and communicating compliance issues
to improve contracting officer performance in complying with Federal acquisition
laws and regulations and (2) the OCAO has a mechanism for measuring the
effectiveness of PMRs.

Our review found opportunities to strengthen the effectiveness of the PMR
program by leveraging limited resources and implementing further process
improvements. Specifically, the PMR Division may be able to better leverage
available resources and provide additional assistance to higher risk contracting
activities by adopting a broader risk-based approach when planning overall
peer review schedules, contract action sampling, and the type or depth of peer



                                               April 1, 2009 – September 30, 2009 5
                                       Management Challenges



                                      Aquisition Programs (continued)
                                      review. Furthermore, we found opportunities to improve the efficiency and
                                      effectiveness of the PMRs in the areas of communication and feedback, review
                                      focus, and implementation of management action plans.

                                      The PMR Division has developed a tool to assist in evaluating contracting activity
                                      performance. The continuing evolution of the PMR process and the qualitative
                                      aspects of PMRs have complicated the development of this tool, but the PMR
                                      Division has made improvements and these efforts continue. We also found
                                      opportunities to improve and supplement this tool, potentially improving its re-
                                      liability and enhancing its use as a performance measure and for trend analysis.

                                      We recommended that the Chief Acquisition Officer:

                                      • Implement program improvements including:

                                        o utilizing a broad risk-based approach across contracting activities;
                                        o enhancing communication and feedback to ensure wide dissemination
                                          of best practices; and
                                        o making improved use of the Internal Control and Audit Division Audit
                                          Tracking System to track implementation of management action plans.

                                      • Continue efforts to improve the Outcome Analysis Tool and refine its usage
                                        to enhance quantification and trend analysis of PMR results.

                                      • Continue current Office of Management and Budget Circular A-123
                                        implementation efforts, integrating where possible with our prior
                                        recommendations, to leverage limited PMR resources.

                                      The Chief Acquisition Officer generally agreed with the report findings and
                                      recommendations and indicated that steps to implement the recommendations
                                      were already underway.

                                      Review of Program Performance Measurement for Procurement
                                      Report Number A070171/Q/A/P09005, dated September 30, 2009

                                      Under the GSA’s MAS Program (Schedules Program), the FAS establishes
                                      and administers long-term contracts with commercial vendors to provide
                                      government agencies with streamlined access to over 12 million commercial
                                      supplies and services to meet their missions. Agencies’ use of the Schedules
                                      Program satisfies government-wide competition requirements mandated by
                                      law provided that GSA opens the program to all responsible sources, and
                                      contracts and orders under the program result in the lowest cost alternative
                                      for the government’s needs. To ensure customer agencies and taxpayers
                                      receive the best value and fulfill the intent of the Schedules Program,
                                      contracting officers are responsible for negotiating with the goal of achieving
                                      vendors’ most favored customer pricing through leveraging the collective


6 Semiannual Report to the Congress
    Management Challenges



Aquisition Programs (continued)
purchasing volume of the government. The objective of this review was to
determine if FAS has performance measures for MAS contracting officers that
stress the importance of contract quality, including pricing, and if not, to identify
potential performance measures FAS could implement to ensure that MAS
contracts reflect the intent and goals of the Schedules Program.

Our review identified that FAS has performance measures for MAS contracting
officers that assess contract quality, including customer satisfaction and
compliance with laws, regulations, and guidelines. We found existing
measures for customer satisfaction to be sufficient. However, because of the
importance of pricing to the foundation of the Schedules Program, attention is
needed to ensure that pricing receives more emphasis in the contracting officer’s
performance and to ensure an adequate assessment of overall compliance.

We recognize that FAS has made efforts to develop meaningful and measurable
contract quality measures for MAS contracts, including some pricing measures.
However, we believe FAS should adopt additional measures at the organizational
level to address continuing concerns about Schedules Program pricing.
Strengthening price-related performance measures is critical to improve controls
over the quality of MAS contracts and enhance the value of the Program. In
conjunction with the information based on our study of other government
procurement organizations, we are also reaffirming recommendations from a
previous report2 intended to improve contracting officer performance in price
analysis and negotiations.

Relative to broad compliance with laws, regulations, and guidelines, FAS has
developed portfolio scorecards that incorporate a measure for overall quality
of contract actions; however, FAS has not formally implemented the measure.
The intended basis for the measure is the results of annual Procurement
Management Reviews performed by GSA’s Office of the Chief Acquisition Officer
(OCAO); however, in our opinion, these reviews do not provide adequate
evidence of the level of compliance for the Program due to the small number of
MAS contract actions included in the samples.

We recommend that the Commissioner of the Federal Acquisition Service:

• Ensure that the Offices of General Supplies & Services; and Travel, Motor
  Vehicles, and Card Services develop at least one organizational measure
  emphasizing the importance of pricing to the Schedules Program for FY
  2010 and future scorecards.


2
    In Audit Report Number A060190/Q/6/P07004, “Review of Multiple Award Schedule Program
    Contract Workload Management,” dated July 31, 2007, we addressed the need for increased
    attention to pricing in CO performance measures. To date, FAS has not implemented the
    recommendations to establish performance measures that evaluate CO effectiveness
    regarding price analysis and negotiations.


                                                    April 1, 2009 – September 30, 2009 7
                                       Management Challenges



                                      Aquisition Programs (continued)
                                      • Ensure that the Offices of Integrated Technology Services; General Supplies
                                        & Services; and Travel, Motor Vehicles, and Card Services portfolios develop
                                        an organizational measure for FY 2010 and future scorecards to evaluate
                                        price analysis for a risk-based sample of proposed awards or modifications
                                        (e.g., percent of contracting actions reviewed with acceptable price analysis
                                        performed and documented in compliance with regulatory guidelines).

                                      • Establish an internal review program through the Office of Acquisition
                                        Management that will provide an adequate assessment of the extent that
                                        MAS contracts meet requirements for quality in terms of compliance with
                                        laws, regulations, and guidelines and that can be quantitatively measured at
                                        the organizational level.

                                      The FAS Commissioner partially concurred with the report findings and
                                      recommendations.

                                      Determination of Unnecessary Duplication within the Office of General
                                      Supplies and Services, Federal Acquisition Service
                                      Report Number A080226/Q/A/P09006, dated September 30, 2009

                                      We initiated our review of the Office of General Supplies and Services (GSS)
                                      of the FAS primarily at the request of GSS management to address issues
                                      identified in the OMB’s 2007 Program Assessment Rating Tool’s analysis of
                                      GSS, which stated that unnecessary duplication existed within GSS. The GSS
                                      is responsible for comprehensive supply chain management and acquisition
                                      services under its four business lines. Our review focused on the Supply
                                      Operations (GSA Global Supply) and Acquisition Operations (MAS Program)
                                      business lines, as we determined that they had the most potential for duplication.
                                      OMB’s report noted areas of concern related to duplication of MAS contracts
                                      (1) for the same or similar products and services and competition between the
                                      customer centers because of regional management of FAS’s acquisition centers;
                                      and (2) for similar products that were available under both GSA Global Supply
                                      and MAS that customer agencies could order through multiple websites that
                                      did not allow for item or price comparison. The objective of our review was to
                                      determine if unnecessary duplication exists within GSS, with a specific focus
                                      on whether OMB’s assertion that unnecessary duplication exists between
                                      GSA Global Supply and MAS.

                                      Our review determined that products and ordering systems for GSA Global
                                      Supply and MAS were duplicated. However, based on their unique business
                                      models, the duplicate ordering systems provide customers with different levels
                                      of service. GSA Global Supply performs functions on behalf of the customer,
                                      whereas MAS customers deal directly with the vendors. We concluded that the
                                      duplication was appropriate because each program serves different customer
                                      needs. While duplicate systems do increase costs, the systems generate
                                      revenue above their expenses and are providing value to the customer, as


8 Semiannual Report to the Congress
 Management Challenges



Aquisition Programs (continued)
evidenced by heavy sales volume. In addition, we concluded that unnecessary
duplication did exist within MAS but not within GSA Global Supply.

Duplication of products and services within the MAS Program is not a new
issue for FAS. Since 1999, FAS has commissioned four studies and
developed three initiatives addressing unnecessary duplication. While FAS
has made strides in implementing changes as a result of these studies and
initiatives, it has not implemented all of the recommended changes. For
example, FAS has standardized contract clauses for the services schedules
and reduced the number of GSS schedules to 32. However, it has not
updated the guidance for the process (referred to as the 1649 process) used
to minimize or eliminate overlap of contract offerings or schedules since FAS
was formed as a result of the merger of the Federal Supply Service and the
Federal Technology Service in 2006. FAS initiatives to reduce unnecessary
duplication in the MAS Program have not reduced duplication to the maximum
extent possible due to numerous operational issues and insufficient
educational efforts related to the schedules.

Unnecessary duplication within MAS has caused confusion and increased
operating costs for GSS, vendors, and customers alike. Opportunities exist for
GSS to reduce unnecessary duplication by applying recommendations noted
in FAS commissioned studies and optimizing GSS initiatives. By implementing
the studies’ recommendations, optimizing the initiatives, and resolving the
systems issue, FAS could reduce confusion and costs for customers, vendors,
and the organization.

We recommended the Commissioner of the Federal Acquisition Service:

• Create an accurate and complete inventory of GSS MAS duplication.

• Develop and implement a plan to determine whether recommendations in the
  September 2008 report regarding the 1649 process should be acted upon.

• Implement the following operational and educational improvements to the
  Consolidated Schedule (CS):

  o Centrally determine which Schedules should participate in the CS, when
    they may be allowed to cease participation, and what documentation,
    review, and approval are required for such a change.
  o Determine whether acquisition centers that assist with CS contracts
    should be allocated a portion of CS revenue.
  o Synchronize updates of the CS and their participating Schedules.
  o Determine the feasibility of improving the accuracy of CS vendor offerings
    displayed in FAS systems.
  o Increase vendor awareness of the CS.




                                           April 1, 2009 – September 30, 2009 9
                                        Management Challenges



                                       Aquisition Programs (continued)
                                       • Issue updated guidance on the 1649 process, after determining the most
                                         suitable procedures.

                                       • Submit a formal Federal Procurement Data System change request to
                                         GSA’s Office of the Chief Acquisition Officer to resolve the issue that
                                         requires GSS to award separate MAS contracts for small business set-
                                         asides.

                                       The FAS Commissioner concurred with our report findings and
                                       recommendations.

                                       Information Technology
                                       GSA is in the process of replacing or upgrading a number of its legacy
                                       information systems to improve performance and take advantage of
                                       technological advances. Since GSA has had difficulty sharing usable data
                                       between systems, many of the new IT projects are intended to go beyond
                                       automating current business functions and to create real change in the way
                                       that GSA does business. However, GSA systems development projects have
                                       typically experienced significant schedule delays and cost overruns, the need
                                       for frequent redesign, and a prolonged period of time in development.

                                       Review of the Implementation of GSA’s IT Infrastructure Support
                                       Services Consolidation Initiative
                                       Report Number A070113/O/T/F09007, dated June 18, 2009

                                       GSA’s Infrastructure Technology Global Operations (GITGO) initiative was a
                                       performance-based task order awarded for the purpose of consolidating
                                       GSA’s IT infrastructure support services. Expected benefits from the GITGO
                                       initiative to consolidate GSA’s internal contracts for desktop computing,
                                       networking, messaging and other services were: (1) combining 40 disparate
                                       contracts into one consolidated contract; (2) enhancing efficiency by aligning
                                       functions performed by multiple organizations and locations; (3) establishing
                                       consistent IT infrastructure levels of service throughout GSA; (4) establishing
                                       a consolidated help desk for all IT infrastructure issues; (5) improving
                                       management controls over funding for IT infrastructure, and (6) simplifying
                                       enterprise efforts, such as implementing new software versions and
                                       maintaining asset inventories. Our audit objective was to assess whether risks
                                       with GSA’s consolidation of IT support services have been adequately
                                       mitigated by determining if: (1) the GITGO initiative is generating expected
                                       cost savings and other benefits; (2) GSA’s consolidated IT Service Desk is
                                       operating effectively, efficiently, and securely; and (3) GSA and the GITGO
                                       contractor are developing and implementing Information Technology
                                       Infrastructure Library (ITIL) processes to align IT support services to
                                       customer needs.



10 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

Our review identified findings related to security, service, and cost validation
risks that could hinder long-term success for GITGO if not adequately
addressed. We have identified security controls that need to be strengthened
in the areas of web application, database, and operating system platform
security in response to results of technical scanning and other testing.
Specifically, important risk management activities for the Unicenter Service
Desk infrastructure, including certification and accreditation, the assignment
of an Information System Security Officer (ISSO), and completion of an IT
contingency plan should be prioritized. We also found that comprehensive
procedures are not yet in place for service desk handling of security
incidents, and audit trails for the remote support solution used by the IT
Service Desk are not being analyzed for suspicious activity. An official GSA
governance body should be utilized to review and approve changes to
service level agreements as needed to monitor the performance of the
infrastructure support processes. The ITIL is the selected IT service
management framework for GITGO. However, a GITGO-specific ITIL plan,
with milestones, is needed for guiding the development and implementation
of ITIL disciplines for improving GSA’s IT infrastructure services. Enhanced
procedures are needed for the consolidated IT Service Desk to improve day-
to-day operations. Since procedures were not adequate for verifying the pre-
consolidation cost baseline information, the Office of the Chief Information
Officer should improve the cost validation process to ensure the accuracy of
future cost baselines for monitoring infrastructure support services. Taking
steps to ensure improvements with GITGO at this time will assist GSA in
progressing toward more standardized processes, reliable infrastructure
support services, and efficiencies in GSA operations.

We recommended that the Chief Information Officer improve GSA Infrastructure
Technology Global Operations (GITGO) security controls by:

• Enhancing IT security management of key certification and accreditation
  activities for the Unicenter Service Desk (USD) infrastructure to include:

  o completing the required certification and accreditation;
  o assigning an Information System Security Officer; and
  o developing an IT contingency plan in accordance with the IT Security
    Policy.

• Addressing the security vulnerabilities for the USD infrastructure to include:

  o mitigating the identified vulnerabilities;
  o enhancing hardening procedures for web applications, databases, and
    operating system platforms; and
  o ensuring that IT security performance measures allow for adequate
    oversight of the IT Service Desk by incorporating key requirements into
    the contracting process.


                                            April 1, 2009 – September 30, 2009 11
                                        Management Challenges



                                       Information Technology (continued)

                                       • Improving the handling of IT security incidents by the IT Service Desk to
                                         include establishing comprehensive procedures for handling IT security.

                                       The Chief Information Officer concurred with the findings and recommendations.

                                       FY 2009 Office of Inspector General FISMA Review of GSA’s Information
                                       Technology Security Program
                                       Report Number A090126/O/T/F09011, dated September 30, 2009

                                       The Federal Information Security Management Act of 2002 (FISMA) requires
                                       Federal agencies to develop, implement, and document an agency-wide
                                       information security program. FISMA provides a framework for securing
                                       Federal information systems including: (1) assurance of the effectiveness of
                                       information security controls over information resources; (2) development and
                                       maintenance of minimum controls required to protect Federal information and
                                       information systems; and (3) a mechanism for improved oversight of agency
                                       information security programs. FISMA requires Inspectors General to perform
                                       an annual independent evaluation to determine the effectiveness of their
                                       respective agency’s information security program, including testing of a
                                       subset of the agency’s information systems. The objective of this audit was to
                                       determine if GSA has developed, documented, and implemented an agency-
                                       wide information security program to provide information security for the data
                                       and systems that support the operations and assets of the Agency. We
                                       focused our review on the implementation of processes established with
                                       GSA’s IT Security Program to manage risks for five select Agency systems.

                                       GSA has taken steps to develop, document, and implement an agency-wide
                                       IT security program and also provide information security for the operations
                                       and assets managed by the Agency. We also noted improvements in the
                                       implementation of GSA’s IT Security Program for select agency systems. Our
                                       annual FISMA review identified areas where steps are needed to strengthen
                                       risk management practices with GSA’s IT Security Program and instances
                                       where system security officials’ practices did not mitigate risks and protect
                                       sensitive data and systems, as required. Specific IT security findings fall into
                                       four main areas where we also provided overall recommendations to better
                                       manage risks for GSA systems and sensitive information: (1) certification and
                                       accreditation of system controls, (2) internal application security, (3) security
                                       of social media technologies (e.g., blogs, wikis), and (4) oversight of systems
                                       provided by contractors. Also, we found that management attention was
                                       needed to strengthen controls for specific GSA systems, particularly in the
                                       areas of access control, audit logging and monitoring, and secure
                                       configuration of system devices.




12 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

To improve GSA’s IT Security Program and better ensure the security of
Agency systems, data, and operations, we recommended that the Chief
Information Officer:

• Strengthen system certification and accreditation (C&A) processes by:

  o Developing language to be included in C&A contracts for the provision of
    adequate details on methods used to conclude on the effectiveness of
    system security controls, and updating Agency security guidance
    accordingly.
  o Enhancing oversight processes to ensure that detailed information on
    testing procedures and methodologies is provided in system C&A
    packages.
  o Collaborating with system security officials to ensure that system
    boundaries and controls for minor applications are adequately
    considered with C&A activities.

• Enhance the security of internal applications by working with GSA Services/
  Staff Offices/Regions to:

  o Develop and maintain an inventory of internal applications, including the
    data maintained and functions performed by these applications.
  o Ensure that these applications, including those we have identified in our
    report, meet GSA security requirements.
  o Strengthen change management procedures to better ensure that
    applications are put in operation with appropriate security controls.

• Improve security of GSA’s social media technologies, such as blogs and
  wikis, by:

  o Reviewing all Agency-operated social media sites to ensure that
    appropriate access controls are established for creation and maintenance
    of such sites.
  o Incorporating the Agency’s social media policy into security awareness
    training and rules of behavior.
  o Ensuring that periodic security reviews of social media sites are performed.

• Work with the Chief Human Capital Officer, Chief Acquisition Officer, and
  other Agency officials, as appropriate, to enhance the security of systems
  supported by contractors by:

  o Developing an inventory of contractors supporting GSA IT systems that
    have significant privacy information responsibilities.
  o Ensuring that appropriate security awareness and privacy training is
    provided to contractors supporting GSA systems, including role-based
    training for contractors with significant privacy information responsibilities.


                                             April 1, 2009 – September 30, 2009 13
                                        Management Challenges



                                       Information Technology (continued)

                                         o Prioritizing ongoing efforts to analyze and mitigate the use of non-
                                           government domains for GSA systems by focusing on systems provided
                                           by contractors as managed service offerings.
                                         o Ensuring that appropriate privacy clauses are included in contracts,
                                           statements of work, and task orders for Privacy Act systems.

                                       The Chief Information Officer concurred with the report findings and
                                       recommendations.

                                       To assess the effectiveness of GSA’s IT Security Program for meeting the
                                       FISMA requirements, we based our results on five separate audits of the
                                       following systems: USAccess; Chief Financial Officer (CFO) Corporate
                                       Information Network; E2 Solutions (E2) system; Public Buildings Service
                                       (PBS) eLease system; and, Enterprise Communications System (ECS). The
                                       security control audit of USAccess was issued and reported in the previous
                                       SAR period. The audit of CFO Corporate Information Network will be issued
                                       in the next SAR period. The three remaining security control audits were
                                       issued this SAR period and are summarized below.

                                       • The E2 system is an operational financial management Privacy Act System
                                         of Record operated and maintained by a Federal contractor to provide travel
                                         services for GSA. It is part of the e-Gov Travel Service (ETS) Initiative launched
                                         by GSA to meet the goals of the President’s Management Agenda, initiated
                                         by President George W. Bush in 2001. ETS is an operational web-based
                                         service intended to provide travel management practices to consolidate
                                         Federal travel, minimize cost, and produce superior customer satisfaction.
                                         E2 is one of the three systems offered under the ETS Initiative. In our review
                                         of selected IT system security controls for the E2 system, we found that
                                         while GSA’s Office of the Chief Financial Officer with assistance from the
                                         Federal Acquisition Service (FAS) Program Management Office has applied
                                         the majority of the security measures required by FISMA, we identified
                                         specific security controls that require management attention to ensure that
                                         sensitive financial and travel information is adequately safeguarded.
                                         Opportunities exist to strengthen system C&A and risk management
                                         processes by addressing not only the Government-wide solution but also
                                         risks and vulnerabilities specific to GSA’s IT systems environment. We also
                                         found an opportunity to improve GSA’s ability to effectively prevent, detect,
                                         and recover from a system security breach by ensuring that agreements
                                         have been developed for each interconnection with E2. As well, contractor
                                         oversight should be improved by ensuring that required personnel background
                                         investigations are completed and security awareness training is taken prior
                                         to providing contractors with full system access. Further, actions should be
                                         taken to strengthen system security by implementing two-factor authentication
                                         for user access to E2 and by restricting users to privileged procedures and
                                         user training materials to those with a need-to-know. The report contained
                                         three recommendations for the Chief Financial Officer to work with the FAS


14 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

 Program Management Office and the Office of the Chief Information Officer
 to take actions to strengthen management, operations, and technical
 controls to better manage IT security risks with E2 implementation and to
 ensure the confidentiality, integrity, and availability of the system and the
 data it maintains.

• GSA’s ECS is an Agency general support system comprised of collaboration
  and communication software and hardware that supports the exchange of
  information within the GSA community and is managed by the Office of the
  Chief Information Officer (OCIO). The system maintains email accounts for
  GSA employees and contractors and provides email access to another Federal
  organization. Through its PBX telephone systems, ECS provides a variety of
  telecommunications services to GSA associates in all GSA locations, including
  voicemail, fax, call transfers, and video and audio conferencing services, and
  further supports call center operations for FAS. In 2007, the OIG performed
  a review of GSA’s Lotus Notes environment and identified serious security
  concerns. In our review of selected IT system security controls for the ECS,
  we found that the OCIO has completed positive actions to strengthen security
  controls for GSA’s Lotus Notes environment; however, our analysis of specific
  management, operational, and technical controls found areas where additional
  steps are needed to better manage risk and ensure that the confidentiality,
  integrity, and availability of this important system are maintained. We found
  that location-related controls for all system physical locations were not
  addressed when a C&A was performed, limiting management’s ability to rely
  on the C&A to make informed decisions about system security. We also
  identified the need to strengthen audit-monitoring practices to help in detecting
  potential malicious activities. Finally, our security control tests identified
  technical vulnerabilities including untimely patching and insecure settings that
  demonstrate the need to strengthen configuration and management practices
  to better manage technical risks. The report contained three recommendations
  for the Chief Information Officer to strengthen management controls for the
  C&A process, develop policy and procedures for enhancing audit-monitoring
  processes, and strengthen technical controls to protect sensitive system
  functions.

• The eLease system is a Privacy Act system owned by the PBS that maintains
  information required throughout the lifecycle of a PBS building lease, and
  supports over 2000 users across GSA. It supports GSA’s mission to deliver
  superior workspaces through innovation at best value. The goal of eLease is
  to standardize a national leasing transaction lifecycle and automate daily tasks
  of realty specialists. In our review of selected IT system security controls for
  the eLease system, we found that while control tests showed that PBS has
  applied many system security controls required by FISMA and GSA’s IT
  Security Program, our analysis of specific management, operational, and
  technical controls identified needed improvements for eLease, an important
  part of GSA’s leasing process. First, system security can be enhanced by


                                             April 1, 2009 – September 30, 2009 15
                                        Management Challenges



                                       Information Technology (continued)

                                        ensuring that system web users and web applications are configured in
                                        accordance with GSA’s IT Security Policy. Second, ensuring that audit records
                                        for eLease are reviewed regularly for suspicious activity could assist in
                                        detecting potential unauthorized activity. We also noted that contingency
                                        planning activities were not tested for assurance of operational readiness. We
                                        further identified sensitive system documentation within the GSA intranet that
                                        could be accessed without authentication, including eLease security controls
                                        that should be restricted on a “need to know” basis. The report contained three
                                        recommendations for the Commissioner, Public Buildings Service to improve
                                        technical controls to maintain the eLease security; enhance operational
                                        readiness by ensuring that eLease procedures and staff are included in
                                        contingency plan testing; and, strengthen management controls over sensitive
                                        system documentation.

                                       Management Controls
                                       Multiple management controls and extensive supervisory reviews have been
                                       replaced, through streamlining efforts, by fewer and broader controls, making it
                                       essential that the remaining control processes be emphasized and consistently
                                       followed. Streamlined processes have helped GSA achieve its goal of serving
                                       customers more quickly and efficiently; however, the Agency is exposed to the
                                       risk of mismanagement and abuse if program officials do not ensure the faithful
                                       application of existing safeguards.

                                       Audit of Personal Property Management Donation Program, Federal
                                       Acquisition Service
                                       Report Number A080104/Q/5/P09003, dated August 25, 2009

                                       Within GSA Federal Acquisition Service’s Office of General Supplies and
                                       Services, the Office of Personal Property Management (Personal Property
                                       Office) is responsible for managing and facilitating the disposal of personal
                                       property continually being excessed by executive agencies. Specifically, GSA
                                       determines whether there are Federal requirements for an agency’s excess
                                       personal property. If GSA determines that no Federal requirements exist, it
                                       becomes surplus property and is available for donation to State and local
                                       public agencies, through the State Agencies for Surplus Property (SASPs).
                                       To facilitate the disposal process, GSA established an internet based
                                       system, GSAXcess®, for listing agencies’ excess property. For fiscal year
                                       2008, the Federal government reported nearly $8 billion (based on original
                                       acquisition cost) of property as excess. The objectives of the audit were to
                                       determine whether the Personal Property Office was providing effective
                                       oversight of the SASPs, and whether the property not processed through the
                                       GSAXcess® system was given adequate visibility and was properly
                                       allocated.




16 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

While the Personal Property Office provided oversight of the SASPs, more
can be done to ensure controls over property are adhered to and allocations
performed reasonably. The SASPs assist donees in locating, screening, and
acquiring needed equipment, and advise donees of the terms, conditions,
restrictions, and noncompliance ramifications associated with donating personal
property. Specifically, some SASPs did not notify GSA in a timely manner, or
sometimes at all, when they did not pick up or acquire property they had
selected for transfer. Also, GSA continued to transfer property with little corrective
action to SASPs with histories of selling high percentages (25 percent or more)
of the property transferred to them. The Personal Property Office’s guidelines
state that the SASPs must donate at least 75 percent of the property transferred
from the Federal government. In addition, SASPs transferred property to Small
Business Administration (SBA) 8(a) donees without the requisite SBA approvals
designed to assure property was acquired for valid purposes. Furthermore, we
found significant discrepancies between State Agency records and GSA records,
and undetected and unchallenged misuse of donated property.

In many instances property donations were processed outside GSAXcess®,
and referred to as manually prepared. This lowered the assurance that all
parties with valid interests were adequately informed of the property. Even
when donations are manually prepared, they are to be recorded in
GSAXcess® once the transactions are completed. We found that this was not
always done or were entered long after the transaction was completed. Lack
of entry or untimely entry into the system reduces the transparency and
obscures the audit trail for the transactions which increases the potential for
abuse. Donations were manually prepared because of historic practice or for
expediency, such as in the case of Federal Emergency Management Agency
trailers. However, we did not find evidence that property processed outside
the system was improperly allocated.

We recommended that the Commissioner of the Federal Acquisition Service:

• Enhance the monitoring of the State Agencies for Surplus Property by:

  o Placing greater reliance on internal GSA automated records to assist in
    identifying potential problem areas.
  o Simplifying and streamlining the SASP reviews so they are carried out
    more frequently.
  o Assuring SASPs’ sales and donation rates are factored into allocation
    decisions.

• Minimize the processing of property outside the GSAXcess® system
  whenever possible.

• Ensure donations processed outside GSAXcess® are promptly recorded in
  the system.


                                               April 1, 2009 – September 30, 2009 17
                                        Management Challenges



                                       Management Controls (continued)

                                       The FAS Commissioner generally concurred with the report findings and
                                       recommendations.

                                       Review of Management Controls over the Lease Prospectus Process
                                       Report Number A070199/P/R/R09002, dated July 15, 2009

                                       Leasing actions require Congressional authorization if the annual net rent
                                       exceeds a certain dollar threshold. Congressional authorization is accomplished
                                       through the lease prospectus process. Within GSA, the prospectus document,
                                       which outlines and justifies the proposed lease, is prepared by the region
                                       responsible for the lease and then submitted to PBS’ National Office for review.
                                       Next, the OMB must approve it before it is submitted to Congress for
                                       approval. The objective of our review was to determine if management controls
                                       are in place to provide reasonable assurance that PBS leasing transactions
                                       adhere to prospectus requirements. To accomplish this objective, we evaluated
                                       a sample of prospectus submissions and corresponding leases from Fiscal
                                       Year 2001 through 2006, to determine if associated leases remained within
                                       congressionally approved parameters.

                                       Overall, PBS has implemented management controls at the National Office
                                       and the regions over the lease prospectus process. However, interpretation
                                       and implementation of previous National Office guidance varied. During our
                                       review, PBS published a memorandum titled Updated Lease Prospectus
                                       Guidance, which included additional guidance regarding supplemental lease
                                       agreements (SLA), particularly post award SLAs, and the need to obtain a
                                       prospectus for a lease within ten percent of the applicable prospectus
                                       threshold. In general, there were variances in the regions regarding how to
                                       process additional space requests from the tenant agency, and inconsistencies
                                       in defining what constitutes a separate and distinct leasing action; a topic not
                                       covered in former or current policy. As a result, in some instances, a prospectus
                                       may not have been submitted or revised when necessary. Furthermore, the
                                       updated guidance does not define terms such as “material,” clarify what is a
                                       separate and distinct leasing action, or describe the methodology for
                                       combining multiple approved prospectuses into a single lease.

                                       Although the new guidance is an improvement, further clarification is needed,
                                       especially with regard to SLAs. SLAs are the primary method used to change
                                       or modify an existing lease. In some cases, a SLA could trigger the need for a
                                       prospectus or an amended prospectus to be submitted to Congressional
                                       committees. The lease files we reviewed contained variations in how SLAs
                                       were evaluated for prospectus implications. In certain instances, the files
                                       contained an analysis indicating that the contracting officer evaluated the SLA
                                       prospectus implications based on the revised lease terms for the entire lease.
                                       In other instances, the SLA was treated as a standalone leasing action, and
                                       only the incremental increases in square footage and rent costs were evaluated


18 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

for prospectus requirements. Twenty-one percent of the prospectus submissions
and corresponding leases in our sample had incremental increases in space.
This included 11 instances where SLAs were used to acquire additional
space that either: (1) increased the size of a non-prospectus lease above the
prospectus threshold; or (2) pushed a prospectus level lease above approved
parameters.

In addition, PBS needs to address situations where multiple leases might be
construed as a single leasing action. PBS’s treatment of multiple tenant
agency space requests as separate and distinct leasing actions has resulted
in co-located leases with very similar terms that, when combined, exceed the
prospectus threshold. While these leases are technically compliant with
policy, they could be viewed as a single leasing action. In many of these
situations, the Advanced Acquisition Program (AAP) inventory may have been
a contributing factor. The AAP, specific only to the National Capital Region,
provides for fast track, multiple award procurements for non-prospectus
actions based on a generic solicitation for offers and was originally intended
to satisfy customer needs for smaller blocks of space. For example, two
leases were awarded on the same day, for the same tenant agency with the
same lease terms, for about the same rentable square feet (RSF). The
combined leases total approximately 114,000 RSF, with a net annual rent of
slightly over $3 million (27 percent above the FY 2005 threshold of $2.36
million). The file did contain two space requests; however, they were from the
same agency contact person and were dated the same day. In another
instance, a prospectus level lease was awarded in December 2000 within the
approved prospectus parameters of 178,789 RSF and $4,827,303. A second
lease, for 500 parking spaces at a cost of about $379,000 annually, was
awarded the same day for a ten-year term beginning and ending
simultaneously with the leased office space. The prospectus only referenced
15 parking spaces. The commonalities in these examples indicate that the
region should have considered awarding single, rather than multiple leases,
with the appropriate prospectus. Also, while regional guidance notes that the
AAP is not suitable for acquisition of prospectus level leases, our review
disclosed that at least five prospectus level leases were awarded using AAP.

We also identified additional control issues that need to be addressed. These
include incorrect calculations in prospectus analysis, limited documentation
on tenant requirements, leases not monitored for prospectus compliance after
award, and the need for increased communication among the parties involved
in the process.

We recommended that the Commissioner of the Public Buildings Service:

• Establish a consistent approach for evaluating leasing actions for prospectus
  compliance, especially for additional space requests, SLAs, and rent
  calculations.


                                            April 1, 2009 – September 30, 2009 19
                                        Management Challenges



                                       Management Controls (continued)

                                       • Improve communication and coordination among the prospectus process
                                         participants.

                                       • Review the examples cited in our report to evaluate the current status of the
                                         leases and determine whether any leasing actions need to be reported to
                                         the appropriate Congressional committees.

                                       • Develop controls to monitor prospectus leases after award.

                                       • Remove superseded prospectus guidance from PBS’s internal websites or
                                         identify it as having been superseded.

                                       The PBS Commissioner generally concurred with the report findings and
                                       recommendations.

                                       Federal Buildings Fund
                                       As the landlord for the civilian Federal government, GSA is being challenged
                                       to provide quality space to agencies using an aging, deteriorating inventory of
                                       buildings. GSA needs a comprehensive strategy to enable an evaluation of its
                                       building projects nationwide to make the best use of available funds to deliver
                                       high performance workplaces on schedule and within budget.

                                       Review of Cost Estimates for the Los Angeles Courthouse Project
                                       Report Number A080125/P/R/R09001, dated June 23, 2009

                                       The Administrative Office of the U.S. Courts has identified the Los Angeles
                                       Courthouse as the Judiciary’s highest priority project with operations facing
                                       serious space shortages, security concerns, and operational inefficiencies. In
                                       July 2000, the House Committee on Transportation and Infrastructure authorized
                                       and Congress appropriated funds to design a new 41-courtroom courthouse.
                                       Through fiscal year 2005, Congress had appropriated approximately $400
                                       million for the project, and the General Services Administration (GSA) has
                                       acquired and prepared a site in downtown Los Angeles for construction of the
                                       new courthouse. However, the project experienced several delays, and in
                                       March 2006, GSA cancelled the procurement. GSA, in conjunction with the
                                       Office of Management and Budget, Congress, and the Courts, has been
                                       reconsidering its strategy to meet the Court needs. Alternatives to the original
                                       courthouse are being considered, ranging from scaled down versions of the
                                       original project to extensive renovation of the existing buildings to construction
                                       of additional courthouses. GSA has provided cost estimates of these project
                                       alternatives to the stakeholders. Congress has expressed concern over the
                                       reliability of these estimates and requested this review. The focus of our review
                                       was to determine if the project alternatives cost estimates are supported and
                                       based on valid criteria, analysis and assumptions.



20 Semiannual Report to the Congress
 Management Challenges



Federal Buildings Fund (continued)

We found that PBS used different methodologies to develop the cost estimate
for each of the project alternatives, as the alternatives were at different stages
of development and the estimates were often developed within short time
frames. These methodologies were based on varying degrees of cost support
and detail. As such, in some instances the estimates included miscalculations
and judgmental assumptions, as well as many unknown variables that can
further impact the accuracy of the estimates. Moreover, the assumptions for
some estimates were not clearly identified, thus adding a degree of uncertainty
as to what the actual construction or renovation would entail.

Additionally, we noted that judgmental cost factors have a significant impact
on the cost estimate. Each methodology applies an escalation factor to account
for cost increases until the midpoint of construction. While the initial year of
escalation was determined by a market survey, subsequent years are purely
judgmental. Also, PBS has applied a “limited market fee” to the project costs
to compensate for the effect of limited bidders in the Los Angeles marketplace
interested in the project. While PBS consultants agreed with the fee, it appears
subjective in nature. Should the cost escalation and limited market fee prove
inaccurate, this would have a significant impact on estimate reliability.

We recommended that the Commissioner of the Public Buildings Service
improve PBS’s construction cost-estimating accuracy by monitoring cost
estimates against actual results to identify factors that could be enhanced.

The PBS Commissioner concurred with the recommendation.

New Initiatives
The Government has seen significant changes over the last fiscal year.
Specifically, the OIG is directly involved in two initiatives impacting GSA. In
response to recent legislative actions regarding a new Federal Acquisition
Regulation (FAR) rule that requires government contractors to disclose to
agencies’ OIGs credible evidence of violations of Federal criminal law under
U.S.C.Title 18 or the civil False Claims Act, we initiated a website for contractor
self reporting, and internal procedures for evaluating such disclosures. In
addition, the American Recovery and Reinvestment Act of 2009 (Recovery
Act) has required a full range of OIG oversight activities including contract,
financial, and internal audits, as well as criminal investigations, as GSA makes
use of its Recovery Act funding to renovate and repair Federal buildings,
construct land ports of entry, and acquire fuel-efficient vehicles.

New FAR Rule for Contractor Disclosure
Effective December 12, 2008, the Civilian Agency Acquisition Council and the
Defense Acquisition Regulations Council (Councils) agreed on a final rule
amending the FAR to amplify the requirements for a contractor code of business



                                             April 1, 2009 – September 30, 2009 21
                                        Management Challenges



                                       New Initiatives (continued)

                                       ethics and conduct, an internal control system, and disclosure to the
                                       Government of certain violations of criminal law, violations of the civil False
                                       Claims Act, and significant overpayments. The final rule implements the Close
                                       the Contractor Fraud Loophole Act, Public Law 110–252, Title VI, Chapter 1.

                                       Under the rule, a contractor must timely disclose to the relevant agency’s OIG
                                       in connection with the award, performance, or closeout of a Government
                                       covered contract performed by the contractor or a subcontract awarded
                                       thereunder, credible evidence of a violation of Federal criminal law involving
                                       fraud, conflict of interest, bribery, or gratuity violations found in Title 18 of the
                                       United States Code, or a violation of the civil False Claims Act. The rule
                                       provides for the suspension or debarment of a contractor when a principal
                                       knowingly fails to timely disclose, in writing, such violations. The statute
                                       defines a covered contract to mean ‘‘any contract in an amount greater than
                                       $5,000,000 and more than 120 days in duration.’’ The final rule also provides
                                       that the contractor’s internal control system shall be established within 90
                                       days after contract award, unless the contracting officer establishes a longer
                                       time period (see FAR 52.203–13(c)). The internal control system is not required
                                       for small businesses or commercial item contracts.

                                       The GSA OIG has put in place a website for contractor self-reporting and
                                       GSA’s contractors may make the required disclosures through this website.
                                       Further, the OIG has developed internal procedures to process, evaluate, and
                                       act on the disclosures made by contractors. As disclosures are made, the Office
                                       of Audits, Office of Investigations, and Office of Counsel to the Inspector General
                                       work together examining each acknowledgment and making a determination
                                       as to what actions are warranted. During this reporting period, we have received
                                       four actual disclosures. Also, it is not uncommon for a contractor to inform the
                                       OIG of an issue that potentially could rise to the level of mandatory disclosure;
                                       therefore, the company is proactively alerting the OIG of the potential for a
                                       future disclosure.

                                       In cases involving substantial contractor overpayments, the contractor’s
                                       disclosure can be made to either the OIG or the GSA contracting officer (CO).
                                       The Office of Audits is working with Agency management to ensure that
                                       disclosures made to GSA COs are forwarded to the OIG for a full review.
                                       Another common disclosure involves activities discovered as the result of
                                       company mergers whereby the remaining company performs systems reviews
                                       and uncovers a potentially reportable issue, such as the failure of the company
                                       no longer existing to pass on a contractual discount to the Government. A further
                                       cause for potentially reportable activity is found in overlooking the inadvertent
                                       mixing of two companies’ accounting and procedures systems that were in
                                       place to ensure contract compliance. The OIG will work closely with the COs
                                       and the FAS to insure these disclosures are reviewed fully.




22 Semiannual Report to the Congress
 Management Challenges



New Initiatives (continued)

Oversight of GSA’s Implementation of the American Recovery and
Reinvestment Act
The Recovery Act was enacted to create jobs and stimulate the economy
through a variety of measures that modernize the Nation’s infrastructure and
improve energy independence. The Recovery Act provides GSA with funding to
renovate and repair Federal buildings to improve energy efficiency, construct
land ports of entry (LPOE), and acquire fuel-efficient vehicles. Specifically, the
Recovery Act provides $5.55 billion to the Federal Buildings Fund, of which $750
million will be used for Federal buildings and courthouses, $300 million for
LPOEs, and $4.5 billion for measures necessary to convert Federal buildings to
High-Performance Green Buildings. The Recovery Act requires that $5 billion of
these funds be obligated by September 30, 2010, the remainder to be available
until September 30, 2011.

Additionally, the Recovery Act provides $300 million to improve the fuel
efficiency of GSA’s fleet, which will remain available until September 30,
2011. The Act requires that a spending plan, an inventory of the Federal fleet,
and a strategy to substantially increase energy efficiency be completed within
90 days of enactment. The language also requires quarterly reports on
obligations beginning June 30, 2009.

The Recovery Act also provides $7 million to the GSA OIG for oversight
activities, to be available until September 30, 2013.

  OIG Oversight

Effective implementation of the provisions of the Recovery Act poses additional
challenges for GSA. When organizations face large workload increases
combined with short deadlines, the fast pace and pressure can often undermine
the organization’s management controls and thus create an environment that
provides more opportunities for fraud, waste, and abuse to occur.

The Recovery Act provides GSA with its largest amount of construction funding
ever, and the proposed timeframes to award the funding create the need to
develop and award contracts quickly. This is a major undertaking, as GSA
typically receives approximately $1.3 billion of construction funds per year
and its resources for managing the projects and awarding and administering
the contracts are geared toward this lower funding level. In addition, the $300
million for fuel-efficient vehicles must be incorporated into a business process
that is usually driven by fulfilling customer needs as they arise rather than
stockpiling vehicles until they are needed.

Historically, GSA has confronted a number of challenges that could impact its
implementation of the Recovery Act. Specifically, in the construction program,
the OIG has noted deficiencies relating to cost escalations, claims, and project
delays, which result in additional costs to the projects as well as lost rental


                                             April 1, 2009 – September 30, 2009 23
                                        Management Challenges



                                       New Initiatives (continued)

                                       revenue. In the area of financial reporting, we have noted, via the independent
                                       public accounting firm’s financial statement audit, GSA’s challenges in ensuring
                                       that the financial statements are complete and accurate. For example, the FY
                                       2007 financial statements failed to report $276 million of building-related
                                       contractual obligations, including one construction contract for $188 million,
                                       as well as $220 million of contractual obligations for vehicle purchases. Both
                                       contracting and performance irregularities have potential to occur in this
                                       environment.

                                       The oversight of GSA’s implementation of the Recovery Act will require a full
                                       range of oversight activities including contract, financial, and internal audits,
                                       as well as criminal investigations, over the long term. As part of its core oversight
                                       activities, the OIG performs internal audits that evaluate GSA functions and
                                       programs for economy, efficiency, and effectiveness; contract audits of
                                       proposals as well as high value contract modifications and claims under PBS
                                       construction contracts; and investigations of criminal activities that impact
                                       GSA programs. In addition, due to the nature of construction, the need for
                                       oversight will extend beyond the funding period until the projects are completed
                                       and claims have been settled.

                                         Activities to Date

                                       In providing oversight of GSA’s implementation of the Recovery Act, the OIG
                                       has been performing a variety of oversight activities. The OIG developed a risk
                                       assessment of GSA’s Recovery Act implementation. The risk assessment,
                                       entitled GSA’s Implementation Challenges for the Recovery Act, was issued
                                       on August 6, 2009. In assessing GSA's ability to effectively manage these
                                       funds, the OIG identified several challenges that should be addressed. The
                                       OIG found that the Agency needs to hire or contract a sufficient number of
                                       qualified contracting and project management personnel to carry out the
                                       work. To manage construction projects, the Agency also needs to ensure that
                                       projects are thoroughly planned and that project documentation is maintained.
                                       The Agency also needs to ensure it meets the requirements for converting
                                       Federal buildings to High-Performance Green Buildings

                                       The OIG has also initiated reviews of GSA’s Recovery Act responsibilities
                                       including reviews of major construction projects, limited and small scope high
                                       performance green building projects, and the Department of Homeland Security
                                       headquarters project. As of September 30, 2009, the OIG has issued one
                                       audit memorandum related to Recovery Act oversight. The memorandum on
                                       PBS’s Major Construction and Modernization Projects Funded by the
                                       American Reinvestment and Recovery Act of 2009: Comprehensive Project
                                       Plans, dated September 29, 2009, found that project plan management plans,
                                       known formally as Comprehensive Project Plans (CPP), have not always been
                                       updated or fully developed and approved for major Recovery Act construction
                                       and modernization projects. These plans are important as they identify the


24 Semiannual Report to the Congress
 Management Challenges



New Initiatives (continued)

project goals and objectives, the roles and responsibilities of each member of
the project management team, as well as the risk mitigation strategies being
employed.

In addition to oversight reviews, the OIG has provided contract audit support to
GSA contracting personnel to assist and support the contracting personnel in
their efforts to assess and evaluate offers from potential contractors. As of
September 30, 2009, the OIG had issued 32 reports and memoranda on reviews
of contractors’ proposals. As part of this effort, the OIG Office of Audits
coordinated with the Defense Contract Audit Agency to perform 27 audits of
proposals related to a major GSA construction project. The total proposed dollars
audited were over $126 million. As of September 30, 2009, 26 of these audits
have been completed and issued to GSA contracting personnel.

To further assist the agency, the OIG has provided fraud awareness briefings
related to the Recovery Act and performed outreach to GSA personnel as well
as to others. In particular, the OIG teamed with the Antitrust Division of the
Department of Justice to provide fraud awareness training to each of GSA’s
11 regions as well as GSA’s Headquarters. The fraud awareness training
reached over a total of 1,200 individuals. The OIG has also made outreach
presentations at the GSA Expo and to the Federal Chief Information Officers
Council. The GSA Expo was designed to benefit Federal, state and local
government employees and military members who make or influence
procurement decisions. The presentation, which was held on August 7, 2009
for the Chief Information Officers Council, focused on improving information
technology investment management practices in the Federal government to
better prevent and detect fraud, waste, and abuse with the implementation of
the Recovery Act.

As a broadened part of the Recovery Act oversight, the OIG Office of Audits
also prepared and presented training to its staff. This training course, entitled
“Construction Claims in the American Recovery and Reinvestment Act
Environment,” provided detailed, technical instruction on how to audit
construction claims generated from Recovery Act projects. Further, the OIG
has assembled a claims team to perform audits and oversight of the Recovery
Act construction projects.

Finally, in support of the OIG’s mission to prevent and detect fraud, waste, and
abuse, the OIG has opened multiple investigations related to the Recovery Act.
Several of these investigations are ongoing.




                                            April 1, 2009 – September 30, 2009 25
                              Promoting and Protecting Integrity



                                       GSA is responsible for providing working space for one million Federal
                                       employees. The Agency also manages the transfer and disposal of excess
                                       and surplus real and personal property and operates a government-wide
                                       service and supply system. To meet the needs of customer agencies, GSA
                                       contracts for billions of dollars worth of equipment, supplies, materials, and
                                       services each year. We conduct reviews and investigations in all these areas
                                       to ensure the integrity of the Agency’s financial statements, programs, and
                                       operations, and that the taxpayers’ interests are protected. In addition to
                                       detecting problems in these GSA programs and operations, the OIG is
                                       responsible for initiating actions to prevent fraud, waste, and abuse and to
                                       promote economy and efficiency. When systemic issues are identified during
                                       investigations, they are shared with GSA management for appropriate corrective
                                       actions. During this period, criminal, civil, and other monetary recoveries totaled
                                       almost $156 million (see Tables 5 and 6).

                                       Significant Civil Actions and Criminal Investigations
                                       GSA Contractor Agrees to Pay $128 Million to Resolve
                                       Contract Fraud Allegations
                                       On April 27, 2009, NetApp, Inc. and NetApp U.S. Public Sector, Inc. (collectively
                                       NetApp) agreed to pay the United States $128 million, plus interest, following
                                       an investigation of alleged false claims and contract fraud. This is the largest
                                       contract fraud settlement the GSA has obtained to date.

                                       The settlement relates to contracts entered into by NetApp (a computer storage
                                       and data management solutions company) to sell hardware, software and
                                       storage management services for computer network environments to
                                       government entities through GSA’s Multiple Award Schedule (MAS) program.
                                       Under the MAS program, contractors must agree to disclose commercial
                                       pricing policies and practices, and to abide by the contract terms when selling
                                       to purchasers under the MAS contract.

                                       The settlement resolves allegations that in contract negotiations and over the
                                       course of the contracts’ administration, NetApp knowingly failed to meet its
                                       contractual obligations to provide GSA with current, accurate and complete
                                       information about its commercial sales practices, including discounts offered
                                       to other customers, and that NetApp knowingly made false statements to
                                       GSA about its sales practices and discounts. The settlement further resolves
                                       allegations that NetApp knowingly failed to comply with the price reduction
                                       clauses of their GSA contracts by failing to disclose to GSA discounts NetApp
                                       gave to its commercial customers when they were higher than the discounts
                                       that NetApp had disclosed to GSA, and by failing to pass those discounts on
                                       to government purchasers. Because of these allegedly fraudulent dealings, it
                                       is alleged that the U.S. accepted lower discounts and paid far more than it
                                       should have for NetApp products.

                                       The settlement resolves the lawsuit filed on behalf of the U.S. government by
                                       a former NetApp employee, who will receive a $19,200,000 share of the recovery


26 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   in the case. Under the False Claims Act, private citizens can bring suit on behalf
   of the United States and share in any recovery obtained by the government.
   This settlement was the result of a coordinated effort by the Department of
   Justice, Civil Division, Commercial Litigation Branch; the U.S. Attorney’s Office
   for the District of Columbia; and the GSA OIG, in investigating and resolving
   the allegations.

   Dynamics Research Corporation Agrees to $15 Million Civil Settlement
   On August 13, 2009, Dynamics Research Corporation (DRC), a consulting,
   engineering and information technology services provider, agreed to pay the
   United States $15 million plus interest to settle allegations that two of its former
   executives engaged in a fraudulent kickback scheme that resulted in false claims
   for computer equipment and services relating to contracts with the Air Force.
   This civil settlement was a result of a joint investigation by the GSA OIG, the
   Defense Criminal Investigative Service (DCIS), the Defense Contract Audit
   Agency (DCAA), the Internal Revenue Service Criminal Investigations (IRS-CI),
   the FBI, and the Air Force Office of Special Investigations.

   The investigation found that from 1997 to 2000, DRC’s vice presidents steered
   Air Force contracts for computer equipment and services to companies owned
   by themselves, a vice president’s wife and others, in exchange for kickbacks
   and inflated contract prices. The two executives received windfall profits in
   excess of $7 million. This settlement agreement resolves the 2003 lawsuit
   filed against DRC, in which the United States sought damages and penalties
   under the Anti-Kickback Act and the False Claims Act and for breach of contract.

   The settlement includes the company’s admission of liability solely for breach
   of contract and payment of $15 million to the government and dismissal with
   prejudice of all other claims against DRC. The company, which said it did not
   know or benefit from the unlawful conduct of its former employees, noted that
   it previously reported on this matter and recorded a $15 million charge in its
   2008 financial results.

   In related criminal proceedings in 2001, DRC’s vice presidents pled guilty to
   conspiring to defraud the government. One DRC vice president was sentenced
   to five years in prison and ordered to pay $3.2 million in restitution; the other
   vice president was sentenced to one year and eight months in prison and
   ordered to pay $2.8 million in restitution.

   Two straw corporations formed to facilitate the fraud were each sentenced to
   24 months probation and ordered to pay restitution totaling over $7.5 million.
   Another corporation was ordered to pay $3,745,302 in restitution and its
   President was sentenced to 36 months probation, fined $25,000, and ordered
   to pay $350,000 restitution.




                                                 April 1, 2009 – September 30, 2009 27
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)
                                       Lighthouse Disaster Relief Agrees to $4 Million Settlement
                                       for False Claims
                                       On April 23, 2009, Consent Judgments were entered in the amount of $4 million
                                       against Lighthouse Disaster Relief (LDR) on the basis of settlement agreements
                                       between LDR’s co-owners and the United States. The co-owners are jointly
                                       and severally liable for the $4 million judgment and agreed to release all claims
                                       to ownership of approximately $1.66 million that had been garnished by the
                                       U.S. This investigation was worked jointly with the Department of Homeland
                                       Security (DHS), OIG.

                                       On September 18, 2005, GSA awarded a contract to LDR for the DHS Federal
                                       Emergency Management Agency for a 1,000 person base camp for disaster
                                       relief workers in St. Bernard’s Parish in the wake of Hurricane Katrina. Under
                                       the contract, LDR was required to setup and operate the base camp for 30 days
                                       for a firm fixed price of $5,209,000. The investigation determined that LDR did
                                       not fulfill the terms of the contract, but received full payment.

                                       On February 27, 2006, a civil complaint was filed against LDR for $2,421,100
                                       alleging that LDR did not provide any services for 13 days of its contract.
                                       Garnishment orders were filed for the bank accounts of LDR and the co-owners
                                       of LDR. Additionally, a garnishment order was filed against Premier Party
                                       Rentals, Inc. for monies owed to LDR in the sale of its base camp.

                                       U.S. Secures $2.3 Million Judgment against President of Pacific General,
                                       Inc. for False Claims
                                       On April 22, 2009, the United States obtained a judgment in the amount of
                                       $2,346,600 against the owner and president of Pacific General, Inc. (PGI), for
                                       submitting false claims related to federal construction contracts at the Grand
                                       Canyon National Park and the Lake Mead National Recreational Area.

                                       Between November 2003 and January 2004, the president falsely certified
                                       that PGI was properly bonded to perform federal construction work and that
                                       PGI was paying its subcontractors for work on federal construction projects in
                                       the Grand Canyon National Park and the Lake Mead National Recreational
                                       Area. This was a joint investigation with the Department of Interior (DOI) OIG,
                                       the FBI and the GSA OIG initiated at DOI’s request.

                                       L-3 Government Services, Inc. Agrees to Pay U.S. Over $1.9 Million
                                       for Making False Claims
                                       On April 8, 2009, L-3 Government Services, Inc. (L-3) agreed to pay
                                       $1,933,080 to the U.S. as part of a civil settlement agreement for fraudulent
                                       overbillings. The investigation found that L-3 violated the False Claims Act and
                                       the Program Fraud Civil Remedies Act.

                                       L-3 requested admission into the Department of Defense OIG Voluntary
                                       Disclosure Program. L-3 disclosed it had overbilled for hours under GSA

28 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)
   contract GS-35F-47-02G, Task Order T0701BG0108, and the follow-on contract
   GS-07T-00-BGD-0023, Task Order MU210201T1. The investigation revealed
   that L-3 salaried employees were routinely entering nine hours on their time
   sheets when in fact they only worked eight on information technology support
   services contracts. The settlement was a result of a joint investigation with the
   Defense Criminal Investigative Service and the U.S. Army Criminal
   Investigative Division.

   University Loft Company Agrees to Pay U.S. $400,000 to Resolve
   Contract Fraud Allegations
   On June 12, 2009, University Loft Company agreed to pay the United States
   $400,000 following an investigation of alleged false claims and contract fraud.
   The settlement resolves allegations that the company knowingly sold
   Malaysian-made furniture to government purchasers in violation of the Trade
   Agreements Act (TAA). To further government trade policy, the TAA sets
   requirements for the country of origin of products sold to the United States.
   University Loft Company was required to comply with the TAA under contracts
   with the GSA that allowed it to sell products to the military and other
   Government purchasers. University Loft Company competitor Furniture by
   Thurston Inc., and Lee Thurston individually filed this lawsuit on behalf of the
   U.S. government and will receive a $66,000 share of the recovery. Under the
   False Claims Act, private citizens can bring suit on behalf of the United States
   and share in any recovery obtained by the Government.

   This settlement was the result of a coordinated effort to investigate and resolve
   the allegations by the U.S. Department of Justice, Civil Division, Commercial
   Litigation Branch; the U.S. Attorney’s Office for the District of Columbia; the
   GSA OIG; the Air Force Office of Special Investigations; the Defense Criminal
   Investigative Service; the Naval Criminal Investigative Service; and the
   Department of the Navy, Acquisition Integrity Office.

   Booz, Allen & Hamilton Agrees to Pay U.S. $325,000
   for Fraudulent Billing
   On May 29, 2009, Booz, Allen & Hamilton, Inc. (BAH) signed a release and
   settlement agreement with the U.S. to pay $325,000 for fraudulent billing
   practices. BAH is a GSA-schedule provider of information services. An
   investigation was initiated when a NASA contract specialist alleged that BAH
   was conducting practices of billing employees at higher job categories than
   justified by their experience, inflating monthly hours, and excessively billing at
   its off-site rate. The investigation verified these allegations and resulted in this
   settlement agreement.

   Six Individuals Sentenced for Conspiracy to Bribe a Public Official
   A joint investigation with the Defense Criminal Investigative Service (DCIS)
   was initiated when it was reported that a former GSA contractor employee at
   Ft. Belvoir, VA, may have provided bid information to a project manager at the


                                                 April 1, 2009 – September 30, 2009 29
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       U.S. Army, Fort Belvoir, VA, who then forwarded the bid information to a former
                                       general manager (GM) at Computer Giants (CG). GSA had issued task orders
                                       to CG to provide computer related equipment to the U.S. Army at Ft. Belvoir, VA,
                                       and the Tobyhanna Army Depot (TAD), Tobyhanna, PA.

                                       The investigation disclosed that the former GM of CG, the project manager, a
                                       former Department of Defense (DOD) employee at the TAD and four other DOD
                                       employees (1 from Ft. Belvoir and 3 from TAD) participated in a scheme in which
                                       the DOD employees directed task orders to CG in return for money and other
                                       items of value. The former GM, four former TAD employees, and the DOD
                                       employee from Ft. Belvoir have pled guilty to conspiracy to commit bribery of
                                       a public official, wire fraud, mail fraud and theft of government property, and
                                       were sentenced this reporting period.

                                       On May 4, 2009, one of the former DOD employees at the TAD was sentenced
                                       to 1 year 8 months imprisonment and 3 years supervised release; and ordered
                                       to pay restitution in the amount of $11,018. On June 3, 2009, the former GM
                                       of CG was sentenced to 2 years imprisonment and 3 years supervised release;
                                       and ordered to pay restitution in the amount of $22,100. On June 16, 2009, a
                                       second former TAD employee was sentenced to 1 year 3 months imprisonment
                                       and 2 years supervised release; and ordered to pay restitution in the amount
                                       of $20,000. On July 7, 2009, the former Army employee at Ft. Belvoir was
                                       sentenced to 2 years 10 months imprisonment and 3 years supervised release;
                                       and ordered to pay restitution in the amount of $16,400. On July 9, 2009, a
                                       third former TAD employee was sentenced to 1 year 6 months imprisonment
                                       and 3 years supervised release; and ordered to pay restitution in the amount
                                       of $29,240. On July 16, 2009, the fourth former TAD employee was sentenced
                                       to 1 year 10 months imprisonment and 3 years supervised release; and ordered
                                       to pay restitution in the amount of $18,000.

                                       The investigation developed no information to suggest that the former GSA
                                       contractor employee was part of this scheme, nor that he was aware that the
                                       project manager had provided sensitive contract information to CG. It was found
                                       that he had provided this information to the Army employee because the Army
                                       employee was the Project Manager and client for the contracts in question.
                                       The project manager at Fort Belvoir chose to go to trial and was found guilty
                                       for his participation in the bribery and fraud scheme and is awaiting sentencing.

                                       VA Supervisor and His Attorney Sentenced for Bribery and Preparing/
                                       Filing a False Tax Return
                                       A joint investigation with the FBI, VA OIG, VA Police Service, and the IRS
                                       Criminal Investigations (IRS-CI) was initiated when it was reported that a VA
                                       construction maintenance supervisor was misusing a GSA purchase card
                                       issued to him for Government business. The investigation revealed that the
                                       supervisor steered VA construction, maintenance, and supply contracts to
                                       Escarnio Construction, LLC, and Fischer Supply, LLC that were controlled
                                       and managed by the attorney.

30 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   The attorney paid the supervisor’s personal expenses on a recurring basis for
   having the contracts steered to his corporations. On February 27, 2009, the
   attorney pled guilty to Bribery and Aiding and Assisting in the Preparation of a
   False Tax Return. On July 1, 2009, he was sentenced to 2 years imprisonment,
   followed by 2 years probation. Pursuant to a plea agreement, the VA supervisor
   pled guilty to Bribery and Filing a False Tax Return. On October 1, 2009, he
   was sentenced to 2 years imprisonment, followed by 2 years probation on the
   bribery and filing a false tax return charges.

   GSA Employee Pleads Guilty to Theft of Government Funds/Embezzlement
   A joint investigation with IRS-CI was initiated when it was reported to them
   that a GSA employee had deposited high dollar U.S. Treasury checks made
   payable to the MWR FUND into a Bank of America account. A Pegasys payment
   search showed that from May 2006 through May 2008, thirteen payments
   totaling $593,549.44 had been paid to the MWR FUND from GSA.

   The investigation revealed that the GSA employee started the fictitious company
   called MWR FUND and acquired a P.O. Box for the same; then used his position
   as a GSA Supervisory Accountant to create, sign and submit thirteen fraudulent
   Public Voucher for Refunds (SF 1047s) to the Payable Division within GSA
   Finance, causing U.S. Treasury checks to be dispensed to his fictitious company.
   He admitted to taking the money in order to gamble, pay off credit card debts
   caused by gambling, re-pay bad check debts and re-pay approximately 20
   outstanding loans through the Payday Loan Servicing Company.

   The employee pled guilty to theft of government funds/embezzlement and
   money laundering, and on August 13, 2009, was sentenced to 3 years 1 month
   incarceration, 3 years supervised release, and ordered to pay restitution in
   the amount of $593,549.

   Former Executive of Charitable Organization Pleads Guilty to
   Embezzlement, Tax, and Public Corruption Charges
   A joint investigation with the FBI, U.S. Army Criminal Investigation Command,
   Major Procurement Fraud Unit, the USPS OIG, and IRS-CI was initiated when
   it was alleged that fraudulent activities were occuring at the National Center
   for the Employment of the Disabled (NCED). On July 2, 2009, the former CEO
   and President of the NCED pled guilty to embezzling millions of dollars in
   government program funds and to conspiring with others to deprive the
   community of the right to honest services of elected officials. By pleading
   guilty, he admitted that he schemed to steal or embezzle at least $5,000 from
   NCED (an organization that received at least $10,000 in federal government
   program money) and without authorization of the NCED Board of Directors,
   directed the money for his use or others.

   The former CEO admitted to conspiring to making false statements and
   defrauding the United States by lying to the Committee for Purchase from the

                                              April 1, 2009 – September 30, 2009 31
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       Blind and Severely Disabled by falsely claiming that NCED was in compliance
                                       with the Javits-Wagner-O’Day Act (JWOD). He fraudulently secured no-bid
                                       contracts from government agencies–contracts which are set aside for not-for-
                                       profit organizations who employ blind or other severely handicapped individuals
                                       for not less than 75 percent of the man-hours of direct labor required for the
                                       production or provision of the goods or commodities required on the government
                                       contract. NCED did not employ sufficient numbers of blind or severely disabled
                                       workers to qualify for JWOD contracts. He also submitted false information to
                                       a financial institution in order to secure a $975,000 mechanic’s lien on his
                                       new home.

                                       The former CEO also pled guilty to aiding and abetting in the preparation of a
                                       false 2003 tax return and to conspiring with elected officials and others to
                                       commit mail/wire fraud. He knowingly failed to report $1 million in income the
                                       Jones Family Trust received and was involved in a scheme to defraud the
                                       County of El Paso, the El Paso Independent School District, Ysleta Independent
                                       School District, the Socorro Independent School District as well as the citizens
                                       living and voting in El Paso County of the right to honest services of elected
                                       officials. He admitted to paying cash and other bribes in the forms of campaign
                                       contributions and gratuities in order to secure vendor contracts between Access
                                       Healthsource and the above mentioned entities.

                                       Auto Repair Employee Pleads Guilty to Credit Card Theft
                                       An investigation was initiated when it was reported that questionable fuel
                                       transactions were being made with a Voyager credit card for a GSA vehicle
                                       assigned to the U.S. Department of Health and Human Services. The
                                       investigation determined that the fraudulent gas transactions occurred when
                                       the GSA vehicle was at Mission Valley Auto (MVA) for maintenance repairs.

                                       Surveillance tapes and records revealed that an employee of MVA had
                                       fraudulently used several Voyager credit cards from GSA vehicles to purchase
                                       gas. He admitted to stealing several Voyager credit cards from GSA vehicles
                                       that were left with the MVA for either repairs or service work, and then
                                       returning the card prior to the GSA vehicle being returned to its agency. On
                                       April 14, 2009, he signed a plea agreement and on July 30, 2009, was
                                       sentenced to 5 years probation and ordered to pay restitution in the amount of
                                       $4,343 for stealing Voyager credit cards.

                                       Contractor Fleet Vendor Fraud
                                       A joint investigation with the NASA OIG was initiated when it was alleged that
                                       Keith Ross Mobile (KRM) had been performing an unusual amount of repairs
                                       to government-owned vehicles (GOVs). The volume of questionable charges/
                                       services submitted by KRM was for battery replacements, jump starts, engine
                                       code checks, oil changes, and wiper blade changes. The investigation revealed
                                       that two KRM employees had invoiced GSA for services and parts that were


32 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   not completed or provided to GOVs assigned for security at the NASA Kennedy
   Space Center. It was found that KRM had billed GSA for 1,080 oil/filter changes
   at a cost of $39,607. On August 18, 2009, the two KRM employees signed a
   Pretrial Intervention Agreement regarding Organized Fraud, which stipulated
   that they pay $13,986 joint restitution to GSA, serve 2 years probation, pay $51
   per month to the Florida Department of Corrections for the cost of
   supervision, and complete 50 hours of community service.

   Township Road Commissioner Pleads Guilty to Conversion
   of Donee Property
   A joint investigation with the Illinois State Police (ISP) was initiated when an ISP
   agent developed information indicating a local township Road Commissioner
   may have sold Federal Emergency Management Agency (FEMA) travel trailers
   to relatives and friends. The investigation found that the commissioner acquired
   numerous pieces of federal surplus property, including 16 FEMA travel trailer/
   campers that were not put into the intended program use by his Township, but
   were used personally by him and sold to his family members and friends prior
   to the expiration of the 18 month restriction period. On July 16, 2009, he pled
   guilty to mail fraud and was sentenced to 30 days confinement with 3 years
   supervised release, and ordered to pay a fine of $10,000. Pursuant to Illinois
   Compiles Statutes, he then resigned his position as Road Commissioner.

   Former GSA Employee Pleads Guilty to Making False Statements
   This investigation was initiated when the U.S. Department of Energy (DOE),
   OIG, alleged that a former GSA employee provided GSA with false information
   in an effort to obtain employment with the GSA’s Public Buildings Service (PBS).
   The investigation found that while he was employed by DOE in August 2007,
   he submitted a fraudulent performance appraisal form to DOE management.
   The forged document led to the former GSA employee receiving a large cash
   performance award; and when he realized that the DOE OIG was conducting
   an investigation into this activity, he resigned from DOE and applied for a
   position with GSA. In August 2008, he was hired by GSA but did not disclose
   that he was the subject to an ongoing criminal investigation.

   On December 2, 2008, the former GSA employee sent GSA an official
   notification of resignation in response to GSA’s proposal to remove him from
   his position for falsification of an official document. On July 23, 2009, the former
   GSA employee was sentenced in U.S. District Court to 3 years supervised
   probation, 6 months of home confinement, and 600 hours of community
   service for making false statements.

   GSA Contractor Pleads Guilty to False Statements
   A joint investigation with the U.S. Postal Service (USPS), the IRS-CI, and the
   OIG was initiated when the USPS reported that several auto body and repair
   shops in the Philadelphia area may have been overcharging the USPS for


                                                 April 1, 2009 – September 30, 2009 33
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       work performed on USPS owned vehicles. The investigation disclosed the
                                       majority of auto body repairs performed on USPS vehicles was being
                                       performed by J B Auto Restoration and Collision (JB Auto) and that one
                                       USPS employee was responsible for funneling the excessive repair work to
                                       JB Auto. He used the GSA Voyager Fleet Credit Cards assigned to the USPS
                                       vehicles to pay for the extensive repairs. On December 16, 2008, the owner of
                                       JB Auto was found guilty of false statements and for failure to withhold,
                                       account for, and pay federal withholding taxes. On July 16, 2009, he was
                                       sentenced to 6 months incarceration and 3 years supervised release; and
                                       ordered to pay restitution in the amount of $68,195. The USPS employee was
                                       tried and acquitted for conspiracy.

                                       GSA Contractor Pleads Guilty to False Claims
                                       An investigation was initiated when the U.S. Small Business Administration,
                                       OIG alleged that the president of L.A. Transportation & Paving Company, Inc.
                                       (L.A.TRANS), Niagara Falls, NY had submitted false claims to GSA by
                                       signing GSA Form 2419 (Certification of Progress Payments Under Fixed-
                                       Price Construction Contracts) and then failing to make payments to his
                                       subcontractors and suppliers. The investigation disclosed that the president
                                       on behalf of L.A. TRANS submitted and caused to be submitted several
                                       “Application and Certificate for Payment” forms to GSA certifying that certain
                                       work had been done, and that L.A. TRANS had paid the subcontractors who
                                       had done the work. On November 21, 2008, the GSA contractor, president of
                                       L.A. TRANS, pled guilty to making false claims and on February 27, 2009 was
                                       sentenced to 5 years probation and ordered to pay restitution in the amount of
                                       $113,446.

                                       GSA Subcontractor Pleads Guilty to Submitting Fictitious Quotes
                                       A joint investigation with DHS-FPS was initiated when GSA PBS contracting
                                       officials reported that WW Contractors, Inc. (WWC) personnel or their sub-
                                       contractors were creating and submitting quotes to PBS in other vendor’s
                                       names. The investigation determined that a division director, Enterprise Electric,
                                       LLC, (EE), created fictitious quotes to direct work to his employer EE. The
                                       investigation identified evidence that the division director created and submitted
                                       five fictitious quotes under the company names of E&M Services (E&M) and
                                       Excel Property Service (EPS). He had personal knowledge of the amount
                                       quoted on the EE quotes; so, he created higher priced E&M and EPS quotes
                                       to fulfill the three bid proposal requirements. He stated that he submitted the
                                       fictitious quotes to GSA through WWC; so, that EE would be awarded sub-
                                       contracts. EE was awarded approximately $85,000 in subcontracts with WWC
                                       for GSA orders based on these fictitious quotes. On June 17, 2009, the director
                                       pled guilty to tampering with governmental records and received deferred
                                       adjudication with 4 years probation, 200 hours community service, and a fine.




34 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   Recovery of Works Progress Administration Painting
   Following the Federal Property and Administrative Services Act of 1949, GSA
   became the custodian of all Works Progress Administration (WPA) works of
   art. The OIG has coordinated with GSA’s fine arts specialists, the Department
   of Justice and the FBI to develop a list of lost and stolen WPA artwork. Fine
   arts dealers are required to check this database prior to the sale of any work
   of art. The OIG continues its proactive investigation by monitoring art sales to
   identify government-owned art being offered for public sale and initiating
   recovery efforts when WPA artwork is located. During this reporting period,
   one item was recovered.

   The Fine Arts Program (FAP) Office, Office of the Chief Architect, GSA PBS
   notified OIG investigators of an eBay auction for a WPA painting, Duchess
   Apple Blossom by artist Reathal Keppen. The seller was apprised of the WPA
   recovery efforts, agreed to terminate the auction, and brought the painting to
   the Minnesota Historical Society. The FAP believed the painting to be an
   authentic WPA artwork. On June 17, 2009, the FAP entered into a loan
   agreement with the Minnesota Historical Society, giving the society
   permission to display the painting for an indefinite period of time. The painting,
   valued at approximately $5,000, has significant historical value.

   Blackmail of GSA Employee
   A joint investigation with the FBI and the Social Security Administration (SSA)
   OIG was initiated when a GSA employee reported that he was receiving
   threatening telephone calls on his personal Nextel cellular telephone. The
   investigation disclosed that two SSA employees were responsible for the calls.
   One SSA employee was indicted by a Federal grand jury for interstate
   communication and conspiracy to defraud the Government and admitted his
   participation in a scheme to extort money from the GSA employee in return
   for not disclosing derogatory information about the GSA employee to GSA
   officials. He pled guilty and was sentenced on May 12, 2009, to 2 years
   supervised release. The other SSA employee pled guilty to unauthorized
   access of a government computer and was sentenced on September 25,
   2009 to 1 year probation and ordered to pay a fine of $2,000.

   Suspension and Debarment Initiative
   GSA has a responsibility to ascertain whether the people or companies it
   does business with are eligible to participate in federally-assisted programs
   and procurements, and that they are not considered “excluded parties.” Excluded
   parties are individuals and companies debarred, suspended, proposed for
   debarment, or declared ineligible to receive contracts by a Federal agency.
   The Federal Acquisition Regulation authorizes an agency to suspend or debar
   individuals or companies for the commission of any offense indicating a lack
   of business integrity or business honesty that directly affects the present
   responsibility of a government contractor or subcontractor. The OIG has made


                                               April 1, 2009 – September 30, 2009 35
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       it a priority to process and forward referrals to GSA, so GSA can timely ensure
                                       that the government does not award contracts to individuals or companies
                                       that lack business integrity or honesty.

                                       During this reporting period, the OIG made 128 referrals for consideration of
                                       suspension/debarment to the GSA Office of Acquisition Policy. GSA issued
                                       122 suspension and debarment actions based on current and previous OIG
                                       referrals.

                                       Integrity Awareness
                                       The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                       employees on their responsibilities for the prevention of fraud and abuse and
                                       to reinforce employees’ roles in helping to ensure the integrity of Agency
                                       operations. This period, we presented 64 briefings attended by 2,334 regional
                                       and Central Office employees. These briefings explain the statutory mission of
                                       the OIG and the methods available for reporting suspected instances of
                                       wrongdoing. In addition, through case studies, the briefings make GSA
                                       employees aware of actual instances of fraud in GSA and other Federal
                                       agencies and thus help to prevent their recurrence. GSA employees are the
                                       first line of defense against fraud, abuse, and mismanagement. They are a
                                       valuable source of successful investigative information.

                                       Hotline
                                       The OIG Hotline provides an avenue for employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in GSA-
                                       controlled buildings encourage employees to use the Hotline. We also use
                                       our FraudNet Hotline platform to allow Internet reporting of suspected
                                       wrongdoing. During this reporting period, we received 1,441 Hotline contacts.
                                       Of these contacts, 276 Hotline cases were initiated. In 119 of these cases,
                                       referrals were made to GSA program officials for review and action as
                                       appropriate, 48 were referred to other Federal agencies for follow up, 83 were
                                       referred for OIG criminal/civil investigations or audits, and 26 did not warrant
                                       further review.




36 Semiannual Report to the Congress
Governmentwide Policy Activities



   We regularly provide advice and assistance on governmentwide policy matters
   to the Agency, as well as to other Federal agencies and to committees of
   Congress. In addition, as required by the Inspector General Act of 1978, we
   review existing and proposed legislation and regulations to determine their effect
   on the economy and efficiency of the Agency’s programs and operations and
   on the prevention and detection of fraud and mismanagement. Because of the
   central management role of the Agency in shaping governmentwide policies
   and programs, most of the legislation and regulations reviewed invariably affect
   governmentwide issues in areas such as procurement, property management,
   travel, and government management and information technology systems.

   Internal Evaluations
   • Operational Assessments. The OIG Office of Internal Evaluation and
     Analysis (JE) conducts operational assessments of OIG components and
     their field offices.

   • Annual Assurance Statement. Pursuant to the Federal Managers’ Financial
     Integrity Act, and OMB Circulars A-123 and A-127, JE coordinated the OIG
     assessment of the adequacy of its internal controls.

   • Office of Forensic Auditing. The Office of Forensic Auditing, JEF, which is
     located in JE, utilizes innovative strategies that enhance the traditional OIG
     audit and investigative practices and procedures to detect fraudulent activities,
     assess situations when a fraud has taken place, and produce evidence meeting
     the standard of proof required by criminal courts. During this reporting period,
     JEF initiated a continuous fraud monitoring strategy to assess potential
     fraudulent purchase card activity, and established a cooperative effort with the
     OIG Counsel’s Office to initiate a proposed computer matching agreement to
     evaluate potential abuses in the GSA transit subsidy program. The unit also
     provided assistance to the OIG Office of Investigations with data matching
     and analysis, and pricing and product substitution analyses in ongoing
     procurement investigations. JEF also participated in a joint operations study
     group with the objective of combining the resources of forensic auditing and
     investigations to proactively find and investigate Recovery Act fraud in the
     procurement process, and used data mining to support ongoing litigation
     against a MAS contractor.

   • Statistical Support for OIG Audits and Investigations. During this reporting
     period, we continued to provide assistance in scientific sampling and database
     analysis to the OIG auditors and investigators for such varied areas of concern
     as uses of purchase cards, fleet vehicles, and charge cards; leased office
     space for Federal employees; procurement fraud; suspension and debarment
     databases; and wage rates on construction projects. We also conducted
     workload analyses for examining types of OIG investigations and times
     required to complete them. In addition, we have conducted recurring analyses
     of Recovery Act contracting data to identify potential areas for further review.
     We examined state and local government debarment databases for potential
     integration with the Excluded Parties List System.


                                                April 1, 2009 – September 30, 2009 37
                               Governmentwide Policy Activities



                                       Interagency Committees and Working Groups
                                       We participated in a number of interagency committees and working groups
                                       that address cross-cutting and governmentwide issues:

                                       • Council of the Inspectors General on Integrity and Efficiency (CIGIE).
                                         The IG is a member of several CIGIE committees including the Homeland
                                         Security Roundtable, the Human Resources Committee, and the
                                         Investigations Committee. The Homeland Security focus of the Roundtable
                                         was a springboard for a review of the Federal Government’s practices during
                                         the Gulf Coast Hurricane Recovery.

                                       The mission of the Human Resources Committee is to provide educational
                                       opportunities for members of the CIGIE communities and to assist in ensuring
                                       the development of competent personnel. The purpose of the Investigations
                                       Committee is to advise the Inspector General community on issues involving
                                       investigative functions, establish investigative guidelines, and promote best
                                       practices.

                                         o CIGIE Federal Audit Executive Council (FAEC) Information
                                           Technology (IT) Committee. The Committee is responsible for leading
                                           discussion and reaching consensus among all of the OIGs regarding a
                                           myriad of IT issues. Our Information Technology Audit Office provides
                                           both administrative and technical support for the CIGIE and the FAEC,
                                           through the IT Committee for FAEC. The IT Committee consists of over
                                           55 members who represent approximately 15 Agencies from across the
                                           Federal IG community. The IT Audit Office’s leadership role includes
                                           planning, hosting, and documenting bimonthly IT Committee meetings
                                           as well as spearheading governmentwide projects and fast-paced surveys
                                           and data analyses on IT audit issues and related matters of interest for
                                           the FAEC.

                                         o FAEC Contracting Committee. The Deputy Assistant Inspector General,
                                           Acquisition Programs Audit Office, participates in the FAEC Contracting
                                           Committee, created in December 2007. This Committee provides a forum
                                           to share information and coordinate reviews of significant contract and
                                           procurement community issues of interest across the IG community and
                                           Federal Government. The Committee also proposes the development and
                                           recommendation of best practices to be used by IGs to address contracting
                                           issues.

                                       • Federal Systems Security Governance Board (FSSGB). The Deputy
                                         Assistant Inspector General, Information Technology Audit Office,
                                         participates in the FSSGB, the oversight body of the Information Systems
                                         Security Line of Business initiative, which seeks to provide for common IT
                                         security solutions governmentwide. Specific FSSGB activities related to IT
                                         auditing and other interests of the OIG community include coordination with
                                         the new Security and Identity Management Committee, under the Federal


38 Semiannual Report to the Congress
Governmentwide Policy Activities



   Interagency Committees and Working Groups (continued)

    Chief Information Council, as the principal interagency forum for identifying
    and recommending strategic high priority IT security and identity-
    management initiatives to the Federal Chief Information Officer Council and
    the Office of Management and Budget.

   • Recovery Accountability and Transparency Board Working Group
     (Recovery Working Group). The GSA OIG is a participating member of the
     Recovery Working Group, comprised of the 29 OIGs that are responsible for
     performing oversight of Recovery Act funds. The Working Group is responsible
     for examining oversight issues that cross all of the federal agencies that
     received Recovery Act funds. Further, the Working Group provides advice and
     makes recommendations to the Recovery Funds Working Group Committee
     on coordinated oversight efforts that cross the federal, state, and local
     governments.

   • Regional Procurement Fraud Working Group. The Regional Inspector
     General for Auditing, Heartland Region Field Audit Office, participates in
     quarterly meetings of the Western District of Missouri and Kansas Regional
     Procurement Fraud Working Group meetings. The goal of the regional
     Working Group is to detect, prevent and prosecute procurement fraud. The
     meetings are chaired by Assistant United States Attorneys from both districts
     and attended by investigators, agents and auditors from various Federal
     Government investigative branches, including Offices of Inspectors General,
     the Federal Bureau of Investigations, and the Department of Justice. In
     addition to improving contact between agencies and U.S. Attorneys Offices,
     these meetings have resulted in innovative methods to identify and prosecute
     fraud and have resulted in the development of collaborative cases between
     different Government agencies.

   • TeamMate Technical Support Group. Our TeamMate Technical Support
     Group participates in the TeamMate Federal Users Group and the CCH
     TeamMate Users Group to discuss concerns and new challenges facing
     TeamMate users. TeamMate is an automated audit paperwork management
     system that strengthens the audit process and increases efficiency.

   Legislation, Regulations, and Subpoenas
   During this reporting period the OIG reviewed legislative matters and proposed
   regulations as well as commented on agency directives. We also responded
   to requests from Congressional members on behalf of their constituents and
   provided Congressional testimonies. Additionally, we issued 83 subpoenas in
   support of our audit and investigative work. The following provides highlights
   of our work in this area:




                                               April 1, 2009 – September 30, 2009 39
                               Governmentwide Policy Activities



                                       Legislation, Regulations, and Subpoenas (continued)

                                       •The OIG made substantive comments on several proposed laws and
                                        regulations, including:

                                       On January 26, 2009, GSA published a proposed rule (GSAR Case 2006-
                                       G507) and request for public comments. The proposed rule amends sections
                                       of the General Services Acquisition Regulations (GSAR) addressing Federal
                                       Supply Schedule Contracting actions, GSAR Part 538, and reflects the agency’s
                                       efforts “to maintain consistency with the Federal Acquisition Regulation
                                       (FAR) and to implement streamlined and innovative acquisition procedures”
                                       through a re-write of the GSA Acquisition Manual (GSAM).

                                       The OIG reviewed the proposed rule and submitted written comments on
                                       March 27, 2009. Notable changes which generated significant concerns within
                                       the OIG included the scope and form of commercial sales practices information
                                       requested for supplies and services offered under GSA’s Multiple Award
                                       Schedule (MAS) program, factors utilized in the evaluation of MAS offers,
                                       evaluation and frequency of economic price adjustments, and extension of
                                       contract terms following the Government’s exercise of an option.

                                       The OIG also provided input into comments by the IG community on Federal
                                       Acquisition Regulation (FAR) Case 2009-011, implementing provisions of the
                                       Recovery Act, which has been published as an interim rule at 74 Fed. Reg.
                                       14,646. The OIG suggested that the alternate version of FAR clause 52.215-
                                       2 for contracts using Recovery Act funds should state that IGs have access
                                       to all relevant records, rather than just “directly pertinent” records. This
                                       change was incorporated in the interim rule. The OIG also proposed that the
                                       rule grant IGs the right to interview subcontractor employees in connection
                                       with contracts funded by the Recovery Act. This suggestion was not
                                       implemented.

                                       • A recent Congressional request from a Senator centered on concerns from
                                         a constituent regarding conditions at the Alcan Border Station in Alaska. We
                                         evaluated the concerns raised and determined what actions GSA took to
                                         address the issues. Our review confirmed the existence of several of the
                                         conditions identified in the complaint through an on-site visit and discussions
                                         with PBS personnel responsible for Alcan property management, client
                                         agency representatives, and GSA’s maintenance contractor. Further meetings
                                         with PBS management officials corroborated awareness of the conditions,
                                         however, management acknowledged limited ability in prior years to address
                                         all issues raised due to funding constraints. Management is currently
                                         reassessing the funding level for the facility and is addressing the concerns.

                                       • In July 2009, our Principal Deputy Assistant Inspector General for Auditing
                                         testified before the U.S. House of Representatives Subcommittee on
                                         Economic Development, Public Buildings, and Emergency Management,
                                         about GSA’s National Broker Contracts. The testimony focused on the


40 Semiannual Report to the Congress
Governmentwide Policy Activities



   Legislation, Regulations, and Subpoenas (continued)

    Program’s major areas observed in a current audit and issues that GSA
    should address as it moves forward to the next generation of broker
    contracts:

     o In refining broker tasks, a clearer expectation of the work to be
       performed should be defined under the contract.
     o Improper disclosure of procurement sensitive data remains a risk that
       needs better management.
     o The broker performance evaluation process is complex and cannot
       provide results in time to facilitate performance-based tasking.
     o GSA’s electronic leasing application, eLease, needs to better support
       workflow and analysis.

   The Inspector General also provided testimony and proposed legislation
   during this reporting period.

   • IG Miller Testifies on Contracting Oversight. On April 21, 2009, IG Miller
     testified before the Ad Hoc Subcommittee on Contracting Oversight of the
     Senate Committee on Homeland Security and Governmental Affairs. At that
     hearing, procurement and oversight experts from across the federal
     government offered testimony regarding the state of federal contracting and
     measures needed to ensure greater procurement integrity. IG Miller offered
     four suggestions to improve oversight within the OIG community: (1) making
     IG subpoenas more similar to grand jury subpoenas by permitting IG
     subpoenas to access financial records without previously notifying the target
     of an investigation that the records have been sought; (2) requiring an
     annual report to notify Congress of contractors who are included on
     USASpending.gov as receiving federal contracting dollars at the same time
     they are listed in the Excluded Parties List System as excluded from doing
     business with the federal government; (3) defining the making of a criminal
     false statement under federal law to include the knowing omission by federal
     employees of material information in response to a law enforcement inquiry;
     and (4) restoring the GSA OIG’s contractual authority to review as part of a
     post-award audit the pricing information provided by GSA contractors during
     negotiations.

   • IG Miller Testifies on Aspects of the American Recovery and
     Reinvestment Act. On May 5, 2009, IG Miller testified before the
     Subcommittee on Economic Development, Public Buildings, and Emergency
     Management of the House Transportation and Infrastructure Committee. At
     that hearing, the Sub-committee sought information regarding federal
     agency efforts to implement programs funded by the Recovery Act, and the
     additional resource and oversight needs occasioned by those programs. IG
     Miller testified regarding the cooperation between OIG and GSA personnel in
     preparing for management and oversight of Recovery Act contracts, and the
     tools prepared by the OIG to report findings rapidly, consistent with the


                                              April 1, 2009 – September 30, 2009 41
                               Governmentwide Policy Activities



                                       Legislation, Regulations, and Subpoenas (continued)

                                        accelerated timeline of Recovery Act spending, including vulnerability
                                        assessments, spot reviews of construction projects, and Critical Point
                                        Evaluations. IG Miller also testified regarding expected challenges faced by
                                        GSA in implementing Recovery Act programs, including the need to manage
                                        unbudgeted customer needs, recruit additional qualified contracting officers
                                        and project managers, and manage the security and integrity challenges
                                        posed by an expanded contractor workforce.

                                       • IG Miller Proposes Changes to Laws to Improve Oversight. IG Miller has
                                         also reaffirmed the importance of granting access to financial records
                                         through IG subpoenas without prior notice to investigation targets in a white
                                         paper shortly to be published in the Journal of Public Inquiry. In that paper,
                                         the IG also proposes two other legal reforms that would lead to greater
                                         transparency and accountability in federal programs. The first is a statutory
                                         change that would expressly provide that Inspectors General are entitled to
                                         unrestricted, read-only access to the electronic information systems of their
                                         affiliated agencies, in order that agency system owners would not feel
                                         themselves constrained to inquire into, and adjudge the necessity of, the
                                         OIG’s projects in an effort to maintain compliance with federal information
                                         security requirements. The second change would grant OIGs the right, as
                                         part of federal contracts and grants, to examine the records and interview
                                         the employees of federal contractors, subcontractors, grantees, and
                                         subgrantees, in conjunction with OIG audits and investigations.




42 Semiannual Report to the Congress
Professional Assistance Services



   Government Auditing Standards prohibit Federal audit organizations from
   performing certain types of management consulting projects because they
   may impair the independence of the auditors when performing subsequent
   audit work in the same area. To maintain our independence when working
   closely with GSA management, we carefully assess our services to ensure
   compliance with the standards. As allowed under the standards, we
   participate in Agency improvement task forces, committees, and working
   groups in an observer or advisory capacity.

   Task Forces, Committees, and Working Groups. The OIG provides advice
   and counsel to GSA while monitoring ongoing Agency initiatives. Our
   representatives advise management at the earliest possible opportunity of
   potential problems, help ensure that appropriate management controls are
   provided when installing new or modifying existing Agency systems, and offer
   possible solutions when addressing complex financial and operational issues.

   Our direct participation with the Agency on task forces, committees, and
   working groups allows us to contribute our expertise and advice, while
   improving our own familiarity with the Agency’s rapidly changing systems. We
   nevertheless maintain our ability to independently audit and review programs.
   Our participation on task forces is typically as nonvoting advisory members.

   Some areas in which we have been involved this period include:

   • The Multiple Award Schedule (MAS) Working Group. The Working Group
     was established as a result of an OIG report released in August 2001
     relating to MAS contracting pricing practices. The Working Group is currently
     comprised of senior level management of the Federal Acquisition Service
     (FAS) and the OIG. The Working Group has had several areas of focus,
     including preaward contract reviews and MAS negotiations issues. It
     developed guidance to MAS contracting officers (COs) regarding the
     performance and use of preaward MAS contract reviews. Further, the
     Working Group reinvigorated the process by which FAS and the OIG
     collaboratively select and commence preaward reviews of vendors, and has
     built into this process a specific mechanism for COs to request reviews of
     particular vendors. The MAS Working Group has been restructured to limit
     participation in order to better communicate broad policy issues at a higher
     level. Based on these discussions, subgroups were established to discuss
     discrete issues having to do with particular contracts or reviews. For
     example, an MAS subgroup was tasked to examine the time frames
     necessary to ensure audit results are available in sufficient time to minimize
     the use of temporary contract extensions. Another subgroup provides an
     avenue to resolve issues relating to audit reviews of MAS contacts. This
     subgroup also identifies FAS policy issues for referral to the Working Group.

   • GSA IT Governance Groups. Through collaboration with the GSA Chief
     Information Officer, our Information Technology Audit Office monitors the
     Agency’s efforts to establish a streamlined, enterprise-level IT governance


                                              April 1, 2009 – September 30, 2009 43
                               Professional Assistance Services



                                        structure and process in which the responsibilities of key Services and Staff
                                        Offices, and individual positions, are clear. This includes the IT Executive
                                        Council (ITEC) that reviews and makes decisions and recommendations on
                                        agency-wide technical issues, strategic IT planning, IT portfolio management,
                                        and enterprise architecture guidance, and oversees five standing committees:
                                        (1) Enterprise Applications Committee, (2) Enterprise Architecture Committee,
                                        (3) Enterprise Infrastructure Committee, (4) Information Assurance Committee,
                                        and (5) Portfolio Management Committee.

                                       • Single Audit Act Activities. The Single Audit Act established uniform audit
                                         requirements for state and local governments receiving Federal awards. The
                                         non-Federal entities that receive Federal awards under more than one
                                         Federal program are required to undergo a single audit to prevent duplicate
                                         audits and inefficiencies. Each Federal agency monitors the non- Federal
                                         entity’s use of awards provided by the Agency, and assesses the quality of
                                         the audits conducted relative to its program. The OIG monitors these
                                         activities primarily as they relate to the personal property disposal program.




44 Semiannual Report to the Congress
                     Statistical Summary of OIG Accomplishments


                                       Audit Reports Issued
                                       The OIG issued 98 audit reports during this reporting period. The 98 reports
                                       contained financial recommendations totaling $282,423,231 including
                                       $268,888,227 in recommendations that funds be put to better use and
                                       $13,535,004 in questioned costs. Due to GSA’s mission of negotiating
                                       contracts for governmentwide supplies and services, most of the savings from
                                       recommendations that funds be put to better use would be applicable to other
                                       Federal agencies.

                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring management
                                       decisions during this period, as well as the status of those audits as of
                                       September 30, 2009. There was 1 report more than six months old awaiting
                                       management decision as of September 30, 2009. Table 1 does not include
                                       1 report issued to another agency this period. Table 1 also does not include
                                       4 reports excluded from the management decision process because they pertain
                                       to ongoing investigations.



                        Table 1. Management Decisions on OIG Audits

                                                                               Reports with                     Total
                                                        Number of               Financial                     Financial
                                                         Reports            Recommendations*              Recommendations
For which no management decision
had been made as of 4/1/2009
 Less than six months old                                    21                       15                      $175,110,918
 Six or more months old                                       4                        3                      $ 15,287,844
Reports issued this period                                   97                       67                      $282,423,231
TOTAL                                                       122                       85                      $472,821,993

For which a management decision
was made during the reporting period
 Issued prior periods                                        24                       17                      $175,446,839
 Issued current period                                       34                       23                      $136,209,755
TOTAL                                                        58                       40                      $311,656,594

For which no management
decision had been made
as of 9/30/2009
 Less than six months old                                    63                       44                      $146,213,476
 Six or more months old                                       1                        1                      $ 14,951,923
TOTAL                                                        64                       45                      $161,165,399

*These totals include audit reports issued with both recommendations that funds be put to better use and questioned costs.




                                                                                           April 1, 2009 – September 30, 2009 45
                      Statistical Summary of OIG Accomplishments



                                       Management Decisions on Audit Reports with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned
                                       costs).




                    Table 2. Management Decisions on OIG Audits with
                    Recommendations that Funds be Put to Better Use

                                                     Number of                                      Financial
                                                      Reports                                   Recommendations
   For which no management
   decision had been made
   as of 4/1/2009
    Less than six months old                              12                                       $158,706,954
    Six or more months old                                 3                                       $ 15,287,844
    Reports issued this period                            52                                       $268,888,227
    TOTAL                                                 67                                       $442,883,025

   For which a management
   decision was made during
   the reporting period
     Recommendations agreed to
     by management                                        28                                       $302,443,220
     Recommendations not agreed
     to by management                                      1                                       $    971,197
   TOTAL                                                  29                                       $303,414,417

   For which no management
   decision had been made
   as of 9/30/2009
    Less than six months old                              38                                       $139,468,608
    Six or more months old                                 0                                       $          0
   TOTAL                                                  38                                       $139,468,608




46 Semiannual Report to the Congress
                 Statistical Summary of OIG Accomplishments




  Table 3. Management Decisions on OIG Audits with Questioned Costs

                                  Number of                          Questioned
                                   Reports                             Costs
For which no management
decision had been made
as of 4/1/2009
 Less than six months old             4                             $16,403,964
 Six or more months old               0                             $         0
Reports issued this period           24                             $13,535,004
TOTAL                                28                             $29,938,968

For which a management
decision was made during
the reporting period
  Disallowed costs                   15                               $8,242,177
  Costs not disallowed                0                               $        0
TOTAL                                15                               $8,242,177

For which no management
decision had been made
as of 9/30/2009
 Less than six months old            12                              $ 6,744,868
 Six or more months old               1                              $14,951,924
TOTAL                                13                              $21,696,792




                                                   April 1, 2009 – September 30, 2009 47
                      Statistical Summary of OIG Accomplishments



                                       Investigative Workload
                                       The OIG opened 128 investigative cases and closed 105 cases during this
                                       period. In addition, the OIG received and evaluated 44 complaints and
                                       allegations from sources other than the Hotline that involved GSA employees
                                       and programs. Based upon our analyses of these complaints and allegations,
                                       OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration, and civil referrals to the Civil Division
                                       of the Department of Justice or to U.S. Attorneys for litigative consideration.
                                       The OIG also makes administrative referrals to GSA officials on certain cases
                                       disclosing wrongdoing on the part of GSA employees, contractors, or private
                                       individuals doing business with the government.

                                       During this period, the OIG also made 33 referrals to GSA officials for
                                       information purposes only.


                                Table 4. Summary of OIG Referrals

          Type of Referral                               Cases                                  Subjects

          Criminal                                         68                                      120
          Civil                                            16                                       30
          Administrative                                   46                                      116

          TOTAL                                           130                                      266




                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 29 cases (44 subjects) were accepted for
                                       criminal prosecution and 9 cases (20 subjects) were accepted for civil
                                       litigation. Criminal cases originating from OIG referrals resulted in 40
                                       indictments/informations and 36 successful prosecutions. OIG civil referrals
                                       resulted in 8 case settlements. Based on OIG administrative referrals,
                                       management debarred 35 contractors/individuals, suspended 87
                                       contractors/individuals, and took 23 personnel actions against employees.




48 Semiannual Report to the Congress
              Statistical Summary of OIG Accomplishments



                        Monetary Results
                        Table 5 presents the amounts of fines, penalties, settlements, forfeitures,
                        judgments, and restitutions payable to the U.S. Government as a result of
                        criminal and civil actions arising from OIG referrals.



                  Table 5. Criminal and Civil Recoveries

                                            Criminal                      Civil

Fines and Penalties                        $     22,745

Settlements                                                         $152,452,946

Forfeitures                                    1,831,219

Seizures                                          2,976

Restitutions                                    892,471

TOTAL                                      $2,749,411               $152,452,946


                        Table 6 presents the amount of administrative recoveries and forfeitures as a
                        result of investigative activities.



                      Table 6. Other Monetary Results

Administrative Recoveries                      $585,350

Forfeitures                                       3,318

TOTAL                                          $588,668




                                                                   April 1, 2009 – September 30, 2009 49
APPENDICES
                     Appendix I–Significant Audits from Prior Reports



Under the Agency audit management decision process,            timekeepers and certifying supervisors. It is scheduled
the GSA Office of the Chief Financial Officer, Office of the   for completion by November 15, 2009.
Controller, is responsible for tracking the implementation
of audit recommendations after a management decision
has been reached. That office furnished the following          Fiscal Year 2008 EDP Management
status information.                                            Recommendation Letter
                                                               Period First Reported: October 1, 2008 to March 31, 2009
Sixteen audits highlighted in prior reports to the Congress
have not yet been fully implemented; all are being             The objective of the audit was to discuss findings,
implemented in accordance with currently established           recommendations and suggestions for improvements in
milestones.                                                    internal controls and other management issues that
                                                               were observed during the Fiscal Year 2008 financial
FY 2009 Information Technology                                 statement audit. The report contained fifty seven
                                                               recommendations; nine have not been implemented.
Security Audit of USAccess, GSA’s
HSPD 12 System                                                 Three of the remaining recommendations involve the
Period First Reported: October 1, 2008 to March 31, 2009       Office of the Chief Financial Officer taking the
                                                               following actions: ensure the review of Pegasys audit
The objectives of the audit were to determine if GSA had       log is performed and documentation of the review is
implemented management, operational, and technical             maintained; develop, document and implement an
controls to effectively manage risks inherent to a high-risk   approval process for creating new and modifying existing
system, in accordance with FISMA and GSA’s IT Security         vendor records; and develop and document policies and
Program. The report contained three recommendations;           procedures pertaining to the timely correction of FEDBIL
two have not been implemented.                                 errors. The six remaining recommendations involve
                                                               VITAP system management taking the following actions:
The remaining recommendations involve strengthening            ensure that user accounts are promptly removed for
management controls related to system certification and        separated users in accordance with the GSA termination
accreditation and oversight of third party applications;       procedures; create and implement procedures to
and improving technical controls to protect sensitive          identify and automatically disable user accounts that
system information and maintaining the security of             have been inactive for 90 days according to GSA policy;
USAccess. They are scheduled for completion between            develop and implement procedures to perform a
November 15, 2009 and November 15, 2010.                       periodic review of user activity; implement library
                                                               management software to ensure version control of
                                                               software changes; ensure access to source and
Review of Internal Controls over                               production code is segregated between different
Payroll                                                        individuals who have been authorized; and ensure
                                                               access roles are appropriately segregated between
Period First Reported: October 1, 2008 to March 31, 2009       different individuals based on the defined segregation of
                                                               duties policy. They are scheduled for completion
As related to the FY 2008 Financial Statement Audit, the       between October 15, 2009 and February 15, 2010.
objectives of the audit were to determine if: the National
Payroll Branch has internal control policies and
procedures designed to ensure effective financial              Improving the FedRooms Program
reporting and whether these controls are operating as          Based On Benchmarking
intended; and payroll information is accurately transmitted
to OPM. The report contained one recommendation,               Period First Reported: April 1, 2008 to September 30, 2008
which has not been implemented.
                                                               The FAS requested a benchmarking study as a follow-
The recommendation involves ensuring that the                  up to the review of FedRooms, (Report Number
requirements of CFO P 4282.1 are adhered to by                 A070167/Q/9/P08002, issued on February 4, 2008).


                                                                                      April 1, 2009 – September 30, 2009 53
                      Appendix I–Significant Audits from Prior Reports



The review found that usage of FedRooms was low and          reviewed, including one contractor system, to assess
recommended that the Commissioner of FAS develop a           implementation of GSA’s IT Security Program. The report
business plan for FedRooms. The objective for the            contained five recommendations; four have not been
follow-up audit was to determine how FAS can improve         implemented.
FedRooms to gain wider participation by hotels and
travelers, based on best practices used by large             The remaining recommendations involve working with
corporations and states. The report contained five           the Office of the Chief Acquisition Officer to develop
recommendations; one has not been implemented.               standard requirements and deliverables for IT service
                                                             contracts and task orders that promote compliance with
The remaining recommendation involves determining            GSA IT Security Policy and procedures; working with the
the most effective method of marketing FedRooms. It is       Office of the Chief Acquisition Officer and the Office of
scheduled for completion by November 15, 2010.               the Chief Human Capital Officer (OCHCO) to ensure
                                                             consistent background investigation requirements in
                                                             policies, procedures, and task orders; expediting actions
Work Remains in Implementing                                 to implement encryption of mobile devices and two-factor
a Fully Integrated Pegasys                                   authentication and to work with the OCHCO to promptly
Financial Management System                                  fulfill responsibilities for implementing a comprehensive
                                                             breach notification policy; and enhancing monitoring of
Period First Reported: April 1, 2008 to September 30, 2008   GSA’s public web presence and ensuring that all of
                                                             GSA’s publicly facing web applications (a) encrypt login
The objectives of the audit were to gather information on    credentials, (b) support Federal Information Processing
the status of Pegasys and evaluate risks and potential       Standards (FIPS) Publication 140-2 encryption, and
improvements in two main areas: development and              (c) use approved Government domains for GSA web
maintenance of an integrated accounting and financial        applications. They are scheduled for completion between
management system, and system operations and                 October 15, 2009 and January 15, 2010.
response to management and user needs. The report
contained four recommendations; three have not been
implemented.                                                 Audit of Reimbursable Work
                                                             Authorizations
The remaining recommendations involve coordinating
with GSA Services, Staff Offices, and Regions to             Period First Reported: April 1, 2008 to September 30, 2008
develop a detailed plan for migration and integration of
remaining NEAR functionality and other systems with          The objectives of the audit were to determine if RWAs
Pegasys; ensuring that system implementation review          are properly accounted for and whether controls over
processes comprehensively consider how Pegasys is            RWAs are adequate and effective. The report contained
meeting Agency and customer needs; and improving             two recommendations; neither has been implemented.
security and privacy controls for sensitive Pegasys data.
They are scheduled for completion by October 15, 2009.       The recommendations include ensuring the controls
                                                             recommended by the National Team are effectively
                                                             implemented and adhered to and that the results achieved
FY 2008 Office of Inspector General                          are monitored; and, the residual risks associated with the
FISMA Review of GSA’s Information                            RWA process identified in this report are incorporated
                                                             into the National Team’s reengineered process,
Technology Security Program                                  addressed by management where clarifications are
Period First Reported: April 1, 2008 to September 30, 2008   needed and/or disseminated to GSA associates as part
                                                             of their overall training/implementation process. They are
The objectives of the audit were to assess the               scheduled for completion by January 15, 2010.
effectiveness of controls over GSA systems and data
and to address specific questions and reporting
requirements identified by OMB. Four systems were


54 Semiannual Report to the Congress
                      Appendix I–Significant Audits from Prior Reports



Hotline Complaint – Acquisitions with                          technical, managerial, and operational privacy-related
                                                               controls to effectively mitigate risks inherent to Privacy Act
the Office of the Chief Acquisition                            systems of records; and, has established procedures and
Officer                                                        automated mechanisms to verify control efficacy. The
Period First Reported: April 1, 2008 to September 30, 2008     report contained four recommendations; one has not
                                                               been implemented.
The OIG received a hotline complaint in 2006 stating
concerns about whether the GSA could rely on the               The remaining recommendation involves ensuring that
AWS, ALC, and ACMIS initiatives to achieve its goal of         the Privacy Act Program is integrated with the agency’s
building and retaining an optimal acquisition workforce.       security program. It is scheduled for completion by
Concerns were also expressed regarding the award and           November 15, 2010.
administration of the contracts. The objectives of the
audit were to determine the validity of the complaint
allegations by addressing whether the contracts were           Use of Inventory Management
awarded and administered in accordance with                    Software, Federal Acquisition Service
acquisition regulations, policies, and procedures. The         Period First Reported: October 1, 2007 to March 31, 2008
report contained four recommendations; one has not
been implemented.                                              The objectives of the audit were to determine whether:
                                                               FAS was using the Manugistics inventory management
The remaining recommendation involves ensuring that            software to the fullest extent possible, and if not, what
appropriated funds are obligated and used in                   were the reasons for inconsistent usage; and if the
accordance with the Federal Acquisition Regulation             Manugistics software could be improved to better
(FAR). It is scheduled for completion by March 15, 2010.       manage inventory in the depots and stores. The report
                                                               contained seven recommendations; three have not been
                                                               implemented.
Audit of PBS’s Controls Over Security
of Building Information                                        The remaining recommendations involve the FAS
Period First Reported: April 1, 2008 to September 30, 2008     Commissioner      removing     redundant     inventory
                                                               management functionality from the legacy systems;
The objective of the audit was to determine whether PBS        maintaining up-to-date procurement and inventory costs
has adequate controls in place to protect sensitive building   in the Manugistics software; and conducting a cost/
information. The report contained five recommendations;        benefit study related to implementing improvements
one has not been implemented.                                  to transportation management information. They are
                                                               scheduled for completion between October 15, 2009 and
The remaining recommendation involves implementing             August 15, 2010.
a system of controls to ensure that PBS 3490.1
requirements are being followed by PBS project teams.
It is scheduled for completion by October 15, 2009.            Multiple Award Schedule Program
                                                               Contract Workload Management
                                                               Period First Reported: April 1, 2007 to September 30, 2007
Improvements to the GSA Privacy Act
Program Are Needed to Ensure That                              The objective of the audit was to determine if FAS was
PII is Adequately Protected                                    effectively managing the workload associated with
                                                               processing contract actions in the Schedules program.
Period First Reported: October 1, 2007 to March 31, 2008
                                                               The report contained ten recommendations; four have
                                                               not been implemented.
The objectives of the audit were to determine if GSA:
manages sensitive personal information pursuant to legal
                                                               The remaining recommendations involve adopting a
and regulatory requirements, including e-Government
                                                               more structured approach to reduce the number of
provisions for privacy controls; has implemented


                                                                                      April 1, 2009 – September 30, 2009 55
                      Appendix I–Significant Audits from Prior Reports



existing underutilized schedule contracts; establishing        The remaining recommendation involves replacing the
specific nationwide guidance related to Price Analysis         deficient Induced Draft Fan to permit as-designed
Documentation Requirements and Negotiation Policies            system functionality and performance testing of the
and Techniques for schedule contracts; establishing            system. It is scheduled for completion by January 15,
performance measures that evaluate CO/CS (a)                   2010.
verification of vendor disclosures related to Commercial
Sales Practice, (b) effectiveness in analyzing prices and
conducting negotiations, and (c) consideration of the          GSA’s Electronic Contract Proposal
field pricing assistance; and developing standardized          and Modification System
procedures for the initial screening of offers. They are       Period First Reported: October 1, 2006 to March 31, 2007
scheduled for completion between January 15, 2010
and October 15, 2010.                                          The objective of the audit was to determine whether
                                                               eOffer/eMod is realizing expected benefits and if sufficient
FAS’s Administration of Unused                                 security controls have been designed and implemented.
                                                               The report contained four recommendations; one has not
Airline Tickets                                                been implemented.
Period First Reported: April 1, 2007 to September 30, 2007
                                                               The remaining recommendation involves analyzing
The objectives of the audit were to determine whether          usage rates and developing strategies to address the
FAS Audit Division’s controls and procedures for receipts      causes of low usage. It is scheduled for completion by
and collections were sufficient to administer unused           January 15, 2010.
airline tickets and if they had collected the $56 million of
unused airline tickets claimed by the government. The
report contained six recommendations; two have not             Consolidation of Distribution Centers
been implemented.                                              Period First Reported: October 1, 2002 to March 31, 2003

The remaining recommendations involve pursuing other           The objective of the audit was to examine the operations
alternatives such as DFAS deductions (maximum of               of the FSS Stock Program. The report contained two
$7.7 million) and/or legal action to collect on the            recommendations; one has not been implemented.
outstanding claim of $8.34 million from the non-bankrupt
airline; and developing a feasible plan in conjunction         The remaining recommendation, which requires
with the Office of General Counsel that will lead to           developing access to sufficient and reliable data for all
finalizing settlements of unused airline tickets estimated     delivery methods, is scheduled for completion by
at $48 million with the three bankrupt airlines. They are      October 15, 2009.
scheduled for completion by October 15, 2009.


Heating Operation and Transmission
District’s Operations and Finances
Period First Reported: April 1, 2007 to September 30, 2007

The objective of the audit was to determine if GSA’s
Heating Operation and Transmission District (HOTD), a
steam and chilled water utility service to government
and quasi-government customers in the National Capital
Region, operates and uses its assets economically,
efficiently, and securely. The report contained thirteen
recommendations; one has not been implemented.



56 Semiannual Report to the Congress
                              Appendix II–Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                Funds to        Questioned
Date of       Audit                                                            Be Put to       (Unsupported)
Report        Number                           Title                           Better Use           Costs


(Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial
recommendations related to these reports are not listed in this Appendix.)

PBS Internal Audits
06/23/09       A080125        Review of Cost Estimates for the Los
                              Angeles Courthouse Project

07/15/09       A070199        Review of Management Controls Over the
                              Lease Prospectus Process

07/24/09       A080179        Review of Proposed Lease Payment                                      $157,956
                              Recoveries, Northeast and Caribbean
                              Region

09/29/09       A090129        Limited Review of the Administration of
                              Lease GS-06P-60009, 120th and L Streets,
                              Omaha, Nebraska

09/30/09       A090126        FY 2009 Office of Inspector General
                              Information Technology Security Audit of
                              eLease


PBS Contract Audits
04/07/09       A080137        Review of a Claim: Webcor Construction,
                              Incorporated, Subcontractor to Dick
                              Corporation/Morganti Group, a Joint
                              Venture, Contract Number GS-09P-02-
                              KTC-0002

05/04/09       A090132        Review of Proposed Rental Rate Increase,                               $70,500
                              Lease Number GS-06P-40004, Internal
                              Revenue Service Center, 315 West
                              Pershing Road, Kansas City, Missouri

05/05/09       A080202        Preaward Review of Architect and
                              Engineering Services Contract: Morphosis
                              Architects, Solicitation Number GS-02P-04-
                              DTC-0035

07/24/09       A090193        Preaward Review of Architect/Engineering                              $514,132
                              Proposal: M. Arthur Gensler, Jr. and
                              Associates, Incorporated, Solicitation
                              Number GS-09P-09-KT-C-0061




                                                                              April 1, 2009 – September 30, 2009 57
                               Appendix II–Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to       (Unsupported)
Report         Number                    Title                               Better Use           Costs


07/27/09        A090201         Preaward Review of Architect/Engineering
                                Proposal: Buro Happold Consulting
                                Engineers, Incorporated, Subcontractor to
                                M. Arthur Gensler, Jr. and Associates,
                                Incorporated, Solicitation Number GS-09P-
                                09-KT-C-0061

07/28/09        A090199         Preaward Review of Architect/Engineering
                                Proposal: Clifford Projects, Incorporated
                                and Clifford Planning, LLC, Subcontractor
                                to M. Arthur Gensler, Jr. and Associates,
                                Incorporated, Solicitation Number GS-09P-
                                09-KT-C-0061

07/30/09        A090161         Review of Cost or Pricing Data: Kallidus
                                Technologies, Inc., Contract Number GS-
                                01P-09-BZ-C-0013

08/14/09        A090214         Preaward Review of Architect/Engineering
                                Proposal: Architectural Resources Group,
                                Incorporated, Subcontractor to HKS
                                Architects,  Incorporated,    Solicitation
                                Number GS-09P-09-KTC-0048

08/27/09        A090116         Review of Claims for Increased Costs:
                                General Heating & Air Conditioning, Inc.,
                                Contract Number GS-05P-04-GAC-0055

08/27/09        A090228         Report on Audit of Parts of a Firm Fixed
                                Price Proposal for Architectural and
                                Engineering Services on the new St.
                                Elizabeth’s West Campus of the U.S.
                                Department     of   Homeland     Security
                                Headquarters and Consolidated National
                                Operations Center (NOC): Greenhorne &
                                O’Mara,    Inc.,   Solicitation  Number
                                GS11P08MKC0079

09/04/09        A090254         Report on Audit of Parts of a Firm Fixed
                                Price Proposal for Architectural and
                                Engineering Services on the new St.
                                Elizabeth’s West Campus of the U.S.
                                Department     of   Homeland     Security
                                Headquarters and Consolidated National
                                Operations Center (NOC): Greenhorne &
                                O’Mara,    Inc.,   Solicitation  Number
                                GS11P08MKC0080




58 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                              Financial
                                                                         Recommendations
                                                                    Funds to        Questioned
Date of    Audit                                                   Be Put to       (Unsupported)
Report     Number             Title                                Better Use           Costs


09/08/09   A090217   Preaward Review of Architect/Engineering
                     Change Order Proposal: AECOM U.S.,
                     Subcontractor to Ross Drulis Cusenbery
                     Architecture,   Incorporated,   Contract
                     Number GS-09P-03-KTC-0091

09/09/09   A090232   Report on Audit of Parts of a Firm Fixed
                     Price Proposal for Architectural and
                     Engineering Services on the new St.
                     Elizabeth’s West Campus of the United
                     States Department of Homeland Security
                     Headquarters and Consolidated National
                     Operations Center in Washington, DC:
                     Haley & Aldrich, Inc., Solicitation Number
                     GS11P08MKC0079

09/09/09   A090230   Report on Audit of Parts of a Firm Fixed
                     Price Proposal for Architectural and
                     Engineering Services on the new St.
                     Elizabeth’s West Campus of the United
                     States Department of Homeland Security
                     Headquarters and Consolidated National
                     Operations Center in Washington, DC:
                     Goody, Clancy and Associates, Inc.,
                     Solicitation Number GS11P08MKC0079

09/10/09   A090234   Report on Audit of Direct Labor Rates,
                     IndirectRates, and Other Direct Costs
                     Portion of HDR Architecture, Inc.’s
                     Subcontract Proposal Under Solicitation
                     Number GS11P08MKC0079

09/11/09   A090242   Audit of Firm Fixed Price Subcontract
                     Proposal: Olin Partnership, Solicitation
                     Number GS11P08MKC0080

09/11/09   A090238   Report on Audit of Parts of a Proposal:
                     Robert      Silman   Associates, PLLC,
                     Solicitation Number GS11P08MKC0079

09/14/09   A090239   Audit of: Shen Milsom & Wilke, Proposed
                     Subcontract to Goody Clancy Under
                     Solicitation GS11P08MKC0079

09/15/09   A090233   Report on Audit of Parts of a Subcontract
                     Proposal for: HC YU and Associates,
                     Solicitation GS11P08MKC0079




                                                                  April 1, 2009 – September 30, 2009 59
                               Appendix II–Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to       (Unsupported)
Report         Number                    Title                                Better Use           Costs


09/16/09        A090215         Preaward Review of Architect/Engineering
                                Change Order Proposal: Ross Drulis
                                Cusenbery Architecture, Incorporated,
                                Contract Number GS-09P-03-KTC-0091

09/16/09        A090237         Report on Audit of Parts of a Subcontract
                                Firm Fixed Price Proposal: Rhodeside and
                                Harwell,   Inc.,   Solicitation  Number
                                GS11P08MKC0079

09/17/09        A090236         Report on Audit of Parts of a Proposal: The
                                Protection Engineering Group, Inc.,
                                Solicitation Number GS11P08MKC0079

09/17/09        A090246         Report on Audit of Parts of a Proposal: A&F
                                Engineers, Inc., Solicitation Number
                                GS11P08MKC0080

09/21/09        A090231         Audit of: Gruzen Samton, Proposed
                                Subcontract to Goody Clancy Under
                                Solicitation GS11P08MKC0079

09/21/09        A090252         Report on Audit of Subcontract Proposal to
                                Zimmer Gunsul Frasca for St. Elizabeth’s
                                West Campus of the U.S. Department of
                                Homeland Security: Code Consultants, Inc.,
                                Solicitation Number GS11P08MKC0080

09/21/09        A090253         Report on Audit of Parts of a Proposal:
                                O’Neal Technologies, Inc., Solicitation
                                Number GS11P08MKC0080

09/22/09        A090229         Audit of Parts of a Proposal for ARUP USA,
                                Inc.’s Proposal for Architect & Engineering
                                Professional Services: ARUP USA, Inc.,
                                Solicitation Number GS11P08MKC0079

09/23/09        A090245         Report on Audit of Parts of a Proposal
                                Submitted in Response to Solicitation No.
                                GS11P08MKC0080: Thornton Tomasetti,
                                Inc.

09/24/09        A090247         Hinman Consulting Engineers, Inc., Firm
                                Fixed Price Subcontract Proposal to
                                Zimmer Gunsul Frasca Under Prime
                                Proposal No. GS11P08MKC0080




60 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                                Financial
                                                                           Recommendations
                                                                      Funds to        Questioned
Date of    Audit                                                     Be Put to       (Unsupported)
Report     Number              Title                                 Better Use           Costs


09/25/09   A090241    Report on Audit of Parts of a Proposal for
                      EYP Project No. GS11P08MKC0080
                      (GSA): Einhorn Yaffee            Prescott
                      Architecture & Engineering, P.C.

09/25/09   A090250    Report on Audit of Subcontract Proposal to
                      Zimmer Gunsul Frasca for Architect
                      Engineering Professional Services: RTM
                      Consultants, Inc., Solicitation Number
                      GS11P08MKC0080

09/28/09   A090244    Report on Audit of Parts of a Proposal: JVP
                      Engineers, P.C., Solicitation Number
                      GS11P08MKC0080

09/28/09   A090251    Report on Audit of Parts of a Firm-Fixed-
                      Price Subcontract Proposal for the St.
                      Elizabeths East-West Campus, U.S.
                      Department of HomelandSecurity: Kroll
                      Security Group, Solicitation Number
                      GS11P08MKC0080

09/29/09   A090235    Report on Audit of Parts of a Firm-Fixed
                      Price Subcontract Proposal: Kohnen-
                      Starkey,  Inc.,    Solicitation  Number
                      GS11P08MKC0079

09/29/09   A090243    Audit of Parts of a Proposal: Syska &
                      Hennessy, Inc., Solicitation Number
                      GS11P08MKC0080

09/29/09   A090248    Report on Audit of Parts of a Subcontract
                      Proposal Under Solicitation Number
                      GS11P08MKC0080:                 Schnabel
                      Engineering, LLC


FAS Internal Audits
05/01/09   A090009    Review of the Federal Acquisition Service’s
                      Alliant Ordering Guide

08/25/09   A080104    Audit of Personal Property Management
                      Donation Program, Federal Acquisition
                      Service




                                                                    April 1, 2009 – September 30, 2009 61
                               Appendix II–Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to       (Unsupported)
Report         Number                    Title                                Better Use           Costs


09/09/09        A090151         Review of the Federal Acquisition Service’s
                                Alliant Small Business Ordering Guide

09/30/09        A070171         Review   of    Program    Performance
                                Measurement for Procurement

09/30/09        A080226         Determination of Unnecessary Duplication
                                within the Office of General Supplies and
                                Services, Federal Acquisition Service

09/30/09        A070118         Review of Consistency in Implementing
                                Policy Across Acquisition Centers


FAS Contract Audits
04/01/09        A040224         Review of Multiple Award Schedule                             $2,600,921
                                Contract Number GS-07F-8854D for the
                                Period February 1, 1996 Through
                                December 31, 2006: ADT Security
                                Services, Inc.

04/01/09        A080140         Preaward Review of Multiple Award                                $49,543
                                Schedule Contract Extension: CDO
                                Technologies, Inc., Contract Number GS-
                                35F-5457H

04/01/09        A080123         Review of Multiple Award Schedule                               $115,630
                                Contract Number GS-07F-0008K for the
                                Period October 1, 1999 to September 30,
                                2007: American Material Handling, Inc.

04/07/09        A080181         Preaward Review of Multiple Award                                 $8,775
                                Schedule Contract Extension: I2, Inc.,
                                Contract Number GS-35F-0241J

04/07/09        A080219         Preaward Review of Multiple Award                                $25,144
                                Schedule Contract Extension: MacAulay
                                Brown, Inc., Contract Number GS-35F-
                                0137J

04/10/09        A090068         Preaward Review of Multiple Award                                $40,475
                                Schedule Contract Extension: BAE
                                Systems Specialty Group, Inc., Contract
                                Number GS-07F-5778P

04/13/09        A090070         Preaward Review of Multiple Award
                                Schedule Contract Extension: Softmart
                                Government Services, Inc., Contract
                                Number GS-35F-0346J

62 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                             Financial
                                                                        Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to       (Unsupported)
Report     Number             Title                               Better Use           Costs


04/16/09   A080228   Preaward Review of Multiple Award
                     Schedule Contract Extension: Trimble
                     Navigation Limited, Contract Number GS-
                     07F-5588P

04/21/09   A080197   Preaward Review of Multiple Award
                     Schedule Contract Extension: Tandberg,
                     Inc., Contract Number GS-35F-0859N
04/21/09   A080225   Preaward Review of Multiple Award
                     Schedule Contract Extension: FLIR
                     Systems, Inc., Contract Number GS-03F-
                     5051C

04/23/09   A080203   Preaward Review of Multiple Award
                     Schedule        Contract      Extension:
                     SimplexGrinnell LP, Contract Number GS-
                     06F-0054N

04/27/09   A080210   Preaward Review of Multiple Award                                 $711,525
                     Schedule      Contract       Extension:
                     ImmixTechnology, Inc., Contract Number
                     GS-35F-0330J

04/30/09   A080160   Preaward Review of Multiple Award
                     Schedule Contract Extension: CALIBRE
                     Systems, Inc., Contract Number GS-35F-
                     5833H

04/30/09   A090104   Preaward Review of Multiple Award                                  $16,483
                     Schedule Contract Extension: Scitor
                     Corporation, Contract Number GS-35F-
                     0298J

05/12/09   A090107   Preaward Review of Multiple Award                               $3,376,047
                     Schedule Contract Extension: Westar
                     Aerospace & Defense Group, Inc., Contract
                     Number GS-23F-0207P

05/28/09   A090041   Preaward Review of Multiple Award
                     Schedule Contract Extension: Specialized
                     Products Company, Contract Number GS-
                     06F-0011J

06/08/09   A090115   Preaward Review of Multiple Award
                     Schedule Contract Extension: Square One
                     Armoring Services Company, Contract
                     Number GS-07F-0303J



                                                                 April 1, 2009 – September 30, 2009 63
                               Appendix II–Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to       (Unsupported)
Report         Number                    Title                               Better Use           Costs


06/11/09        A090076         Preaward Review of Multiple Award
                                Schedule Contract Extension: KSJ &
                                Associates, Incorporated, Contract Number
                                GS-10F-0024J

06/11/09        A080077         Limited Scope Postaward Review of Multiple                   $1,486,750
                                Award Schedule Contract: Gartner, Inc.,
                                Contract Number GS-35F-5014H
06/11/09        A090122         Preaward Review of Multiple Award
                                Schedule Contract Extension: The Stanley
                                Works dba Stanley Vidmar, Contract
                                Number GS-27F-5062C

06/17/09        A070188         Limited Scope Review of Multiple Award                          $17,817
                                Schedule Contract: Covenant Security
                                Services, Ltd., Contract Number GS-07F-
                                0505M

06/18/09        A090003         Preaward Review of Multiple Award                               $12,667
                                Schedule      Contract    Extension: ESI
                                International, Inc., Contract Number GS-
                                02F-0058P

07/08/09        A090007         Preaward Review of Multiple Award                              $806,948
                                Schedule Contract Extension: Booz Allen
                                Hamilton, Inc., Contract Number GS-35F-
                                0306J

07/14/09        A090162         Preaward Review of Multiple Award
                                Schedule Contract Extension: Meggitt
                                Training Systems, Inc., Contract Number
                                GS-02F-0414D

07/23/09        A090123         Preaward Review of Multiple Award                               $86,132
                                Schedule Contract Extension: Global
                                Protection Acquisition, Inc., Contract
                                Number GS-07F-6028P

08/06/09        A090145         Preaward Review of Multiple Award
                                Schedule Contract Extension: BTAS, Inc.,
                                Contract Number GS-35F-0546J

08/19/09        A080223         Preaward Review of Multiple Award
                                Schedule Contract Extension: AT&T Corp.,
                                Contract Number GS-35F-0249J




64 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                               Financial
                                                                          Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put to       (Unsupported)
Report     Number             Title                                 Better Use           Costs


08/19/09   A090106   Preaward Review of Multiple Award                                    $34,758
                     Schedule Contract Extension: Perot
                     Systems Government Services, Inc.,
                     Contract Number GS-00F-0049M

08/20/09   A090117   Preaward Review of Multiple Award
                     Schedule Contract Extension: Monster
                     Government    Solutions, Incorporated,
                     Contract Number GS-02F-0010P

08/21/09   A080030   Preaward Review of Multiple Award                                    $59,353
                     Schedule  Contract:    Hewlett-Packard
                     Company, Solicitation Number FCIS-JB-
                     980001-B

08/21/09   A090090   Preaward Review of Multiple Award
                     Schedule Contract Extension: Ezenia!, Inc.,
                     Contract Number GS-35F-0475P

08/21/09   A090109   Preaward Review of Multiple Award                                     $4,965
                     Schedule Contract Extension: DRS
                     Technical Services, Incorporated, Contract
                     Number GS-35F-0056J

08/21/09   A080112   Preaward Review of Multiple Award
                     Schedule Contract Extension: Altarum
                     Institute, Contract Number GS-35F-4912H

08/24/09   A090131   Preaward Review of Multiple Award                                 $2,394,174
                     Schedule Contract Extension: Avid
                     Technology, Inc., Contract Number GS-
                     35F-0638J

08/27/09   A090181   Preaward Review of Multiple Award
                     Schedule Contract Extension: Network
                     Connectivity Solutions, Corp., Contract
                     Number GS-35F-0539J

09/03/09   A090072   Preaward Review of Multiple Award
                     Schedule Contract Extension: BAE
                     Systems Survivability Systems, LLC,
                     Contract Number GS-07F-0177J

09/03/09   A090089   Preaward Review of Multiple Award                                   $124,119
                     Schedule Contract Extension: Mohawk
                     Carpet Corporation, Lees Carpets Division,
                     Contract Number GS-27F-0031N




                                                                   April 1, 2009 – September 30, 2009 65
                               Appendix II–Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to       (Unsupported)
Report         Number                    Title                               Better Use           Costs


09/04/09        A090074         Preaward Review of Multiple Award
                                Schedule Contract Extension: TechFlow,
                                Inc., Contract Number GS-35-0210J

09/10/09        A090113         Preaward Review of Multiple Award
                                Schedule Contract Extension: Design
                                Analysis Associates, Inc., Contract Number
                                GS-24F-1443C

09/11/09        A090067         Preaward Review of Multiple Award
                                Schedule Contract Extension: ManTech
                                Advanced Systems International, Inc.,
                                Contract Number GS-23F-0122J

09/24/09        A090144         Preaward Review of Multiple Award
                                Schedule Contract Extension: TMP
                                Worldwide Advertising & Communications,
                                LLC, Contract Number GS-23F-0076J

09/25/09        A090118         Interim Postaward Review of Multiple                           $461,494
                                Award Schedule Contract: Murray-
                                Benjamin Electric Co., Contract Number
                                GS-35F-0088N

09/30/09        A090158         Preaward Review of Multiple Award                              $358,696
                                Schedule Contract Extension: Applied Data
                                Trends,Incorporated, Contract Number GS-
                                35F-0680J


Other Internal Audits
05/11/09        A080090         Audit of GSA’s Purchase Card Program

06/18/09        A070113         Review of the Implementation of GSA’s IT
                                Infrastructure       Support     Services
                                Consolidation Initiative

08/07/09        A080180         FY 2009 Office of Inspector General Audit
                                of the E2 Travel System Security Controls

09/04/09        A090103         Audit of GSA’s Living Quarters Allowance
                                Process

09/30/09        A080121         Review of the GSA OCAO’s Procurement
                                Management Review Process




66 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                             Financial
                                                                        Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to       (Unsupported)
Report     Number             Title                               Better Use           Costs


09/30/09   A090126   FY 2009 Office of Inspector General FISMA
                     Review of GSA’s Information Technology
                     Security Program

09/30/09   A090126   FY 2009 Office of Inspector General
                     Information Technology Security Audit of
                     the Enterprise Communications System


Non-GSA Internal Audits
09/09/09   A090110   General Services Administration Office of
                     Inspector General’s Independent Report on
                     Applying Agreed-Upon Procedures to the
                     Office of Personnel Management




                                                                 April 1, 2009 – September 30, 2009 67
 Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending

Public Law 104-106 requires the head of a Federal             In GSA, the Office of the Chief Financial Officer (OCFO)
agency to complete final action on each management            is responsible for monitoring and tracking open recom-
decision required with regard to a recommendation in an       mendations. While we continue to assist the Agency in
Inspector General’s report within 12 months after the         resolving these open items, various litigative proceed-
date of the report. If the head of the Agency fails to com-   ings, continuing negotiations of contract proposals, and
plete final action within the 12-month period, the            corrective actions needed to undertake complex and
Inspector General shall identify the matter in the semi-      phased-in implementing actions often delay timely com-
annual report until final action is complete.                 pletion of the final action.

The OCFO provided the following list of reports with action items open beyond 12 months:


Date of         Audit
Report          Number                                             Title


Contract Audits
06/01/00        A000971          Audit of Claim for Increased Costs: Midwest Curtainwalls, Inc., The Federal Triangle
                                 Project

04/30/01        A010127          Audit of Billing under Contract Number GS06P99GZC0315: DKW Construction, Inc.,
                                 Contract Number GS06P99GZC0315

10/18/01        A63630           Postaward Audit of Multiple Schedule Contract: The Presidio Corporation, Contract
                                 Number GS00k95AGS6170

03/25/03        A030140          Limited Scope Review of Termination Claim: Science Applications International
                                 Corp., Contract Number GS35F4461G

03/09/04        A030186          Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Contract
                                 Number GS-29F-0173G

03/09/04        A040162          Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                 Contract Number GS-29F-0173G

06/28/04        A040085          Limited Scope Postaward Audit of Multiple Award Schedule Contract: Onboard
                                 Software, Inc., Contract Number GS-35F-0117J

05/10/05        A050112          Preaward Review of Multiple Award Schedule Contract Extension: Entrust, Inc.,
                                 Contract Number GS-35F-0332K
07/08/05        A050138          Review of Claim for Increased Costs: Nason and Cullen, Inc., Contract Number GS-
                                 03B-02301

10/12/05        A050105          Preaward Review of Multiple Award Schedule Contract Extension: BCOP Federal,
                                 Contract Number GS-14F-003K

11/30/05        A050147          Limited Scope Review of Task Order F11623-02-F-A425 Multiple Award Schedule
                                 Contract: Herman Miller, Inc., Contract Number GS-28F-8049H

03/30/06        A050248          Postaward Review of Lease Costs and Pricing Data: Information Systems Support,
                                 Inc., Contract Number GS-09K-99-BHD-0006

04/18/06        A050122          Review of Industrial Funding Fee Remittances: Fasternal Company, Contract Number
                                 GS-06F-0039K



68 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                   Title


09/07/06   A060181   Preaward Review of Multiple Award Schedule Contract Extension: Haverstick
                     Government Solutions, Inc., Contract Number GS-35F-0496L

10/24/06   A060148   Preaward Review of Multiple Award Schedule Contract Extension: Kimball
                     International, Contract Number GS-29F-0177G

10/31/06   A060206   Postaward Review of Lease Costs and Pricing Data: Information Systems Support
                     Incorporated, Contract Number GS-09K-99-BHD-0006

12/08/06   A060115   Preaward Review of Multiple Award Schedule Contract Extension: WFI Government
                     Services, Inc., Contract Number GS-35F-0553L

04/20/07   A070107   Review of a Claim: Linear Electric Company, Contract Number GS-02B-23182

04/30/07   A060245   Preaward Review of Multiple Award Schedule Contract Extension: Comstor, Division
                     of Westcon Group N.A., Inc., Contract Number GS-35F-4389G
08/23/07   A070183   Preaward Review of Architect Engineer Proposal: Perkins + Will, Contract Number
                     GS-09P-06-KTC-3043

08/27/07   A070141   Review of Claim for Increased Costs: Logicvision, Inc., Contract Number
                     GS06P04GYC0005

08/28/07   A060196   Preaward Review of Request for Equitable Adjustment: Tigard Electric, Incorporated,
                     Contract Number GS-10P-02-LTC-0025

09/27/07   A060239   Preaward Review of Multiple Award Schedule Contract Extension: Emtec Federal,
                     Inc., Contract Number GS-35F-4564G

10/02/07   A060194   Limited Scope Pricing Review of Multiple Award Schedule Contract: Q-Matic
                     Corporation, Contract Number GS-07F-0017K

10/04/07   A070144   Preaward Review of Multiple Award Schedule Contract Extension: Aquilent, Inc.,
                     Contract Number GS-35F-4729G

10/31/07   A070120   Preaward Review of Multiple Award Schedule Contract Extension: Merlin International,
                     Inc., Contract Number GS-35F-0783M

12/18/07   A070176   Preaward Review of Multiple Award Schedule Contract Extension: T-Mobile USA,
                     Incorporated, Contract Number GS-35F-0503M

12/19/07   A070133   Preaward Review of Multiple Award Schedule Contract Extension: World Wide
                     Technology, Inc., Contract Number GS-35F-4194D

02/12/08   A070119   Preaward Review of Multiple Award Schedule Contract Extension: BAE Systems
                     Information Technology, Inc., Contract Number GS-35F-4668G

03/03/08   A070124   Preaward Review of Multiple Award Schedule Contract Extension: Alion Science
                     and Technology Corporation, Contract Number GS-35F-4721G

03/07/08   A070202   Review of a Claim: Dick Corporation/Matt Construction Company, Contract Number
                     GS-09P-01-KTC-007


                                                                      April 1, 2009 – September 30, 2009 69
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                         Title


03/26/08        A080111         Preaward Review of a Claim: Caddell Construction Company, Inc., Contract Number
                                GS-04P-02-EXC-0077

03/31/08        A080080         Postaward Audit Report on Examination of Direct Costs: Science Applications
                                International Corp., Contract Number GS00T99ALD0210

03/31/08        A070227         Preaward Review of Multiple Award Schedule Contract Extension: Telecommunication
                                Systems, Inc., Contract Number GS-35F-4655H

04/10/08        A070168         Preaward Review of Multiple Award Schedule Contract Extension: MSC Industrial
                                Direct Company, Inc., Contract Number GS-06F-0010N

04/10/08        A080083         Review of a Claim for Increased Costs: H.J. Martin & Son, Inc., Contract Number
                                GS-09P-01-KTC-0071

04/29/08        A080084         Review of Change Order Proposal for Resolution of Wage Rate: Kenmor Electrical
                                Company, LP, Contract Number GS-07P-05-URC-5007

05/05/08        A070219         Preaward Review of MAS Contract Extension: Navarro Research & Engineering
                                Inc., Contract Number GS-00F-0092N

05/05/08        A080107         Preaward Review of Multiple Award Schedule Contract Extension: Superior
                                Protection Service, Inc., Contract Number GS-07F-0605N
05/20/08        A070218         Preaward Review of Multiple Award Schedule Contract Extension: KPMG, LLP,
                                Contract Number GS-23F-8127H

05/22/08        A070229         Preaward Review of Multiple Award Schedule Contract Extension: Citrix Systems,
                                Incorporated, Contract Number GS-07F-0332N
06/05/08        A070095         Preaward Review of Multiple Schedule Contract Extension: GTSI Corporation,
                                Contract Number GS-35F-4120D

06/06/08        A080115         Preaward Review of Multiple Award Schedule Contract Extension: Home Depot
                                U.S.A., Inc., Contract Number GS-06F-0052N

06/10/08        A080088         Review of a Claim: Control Air Conditioning Corporation, Contract Number GS-09P-
                                01-KTC-0071

06/11/08        A040224         Review of Multiple Award Schedule Contract: ADT Security Services, Inc., Contract
                                Number GS-07F-8854D

07/23/08        A070217         Preaward Review of Multiple Award Schedule Contract Extension: Compuware
                                Corporation, Contract Number GS-35F-5337H

08/05/08        A080077         Preaward Review of Multiple Award Schedule Contract Extension: Gartner, Inc.,
                                Contract Number GS-35F-5014H

08/07/08        A080158         Preaward Review of a Claim: GPA-Buffer, L.P., Lease Number GS-04B-039838

08/08/08        A080092         Preaward Review of Multiple Award Schedule Contract Extension: Agilent
                                Technologies, Inc., Contract Number GS-24F-0806A


70 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                    Title


08/28/08   A070230   Preaward Review of Multiple Award Schedule Contract Extension: Bearingpoint, LLC,
                     Contract Number GS-35F-4338D

09/02/08   A080071   Preaward Review of Multiple Award Schedule Contract Extension: MPC-G, LLC,
                     Contract Number GS-35F-0348N

09/03/08   A080167   Preaward Review of Multiple Award Schedule Contract Extension: Phoenix Consulting
                     Group, Inc., Contract Number GS-07F-0684N

09/24/08   A070217   Limited Scope Review of Multiple Award Schedule Contract: Compuware Corporation,
                     Contract Number GS-35F-5337H
Date of    Audit                                                                   Projected Final
Report     Number                                   Title                          Action Date

Internal Audits
03/18/03   A020161     Audit of the Consolidation of Distribution Center               10/15/2009
                       Operations: Impact on Shipment Costs and Delivery
                       Times

03/06/07   A060149     Review of eOffer/eMod, GSA’s Electronic Contract                01/15/2010
                       Proposal and Modification System

05/17/07   A070067     Review of the Administration of Unused Airline Tickets          10/15/2009

07/31/07   A060190     Review of Multiple Award Schedule Program Contract              10/15/2010
                       Workload Management

09/13/07   A060170     Review of the Heating Operation and Transmission                01/15/2010
                       District’s Operations and Finances

03/21/08   A070164     Review of the Use of Inventory Management Software,             08/15/2010
                       Federal Acquisition Service

03/31/08   A060228     Improvements to the GSA Privacy Act Program are                 01/15/2010
                       Needed to Ensure that Personally Identifiable
                       Information is Adequately Protected

06/23/08   A070094     Work Remains in Implementing a Fully Integrated                 10/15/2009
                       Pegasys Financial Management System

07/30/08   A070046     Hotline Complaint – Acquisitions with the Office of the         03/15/2010
                       Chief Acquisition Officer

09/11/08   A080081     FY 2008 Office of Inspector General FISMA Review of             01/15/2010
                       GSA’s Information Technology Security Program

09/29/08   A080074     Improving the FedRooms Program Based                on          01/15/2010
                       Benchmarking, Federal Acquisition Service

09/30/08   A070216     Audit of PBS’s Controls Over Security of Building               10/15/2009
                       Information

09/30/08   A060101     Audit of Reimbursable Work Authorizations                       01/15/2010
                                                                       April 1, 2009 – September 30, 2009 71
                  Appendix IV–Government Contractor Audit Findings



The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General appointed
under the Inspector General Act of 1978 to submit an annex on final, completed contract audit reports issued to the con-
tracting activity that contain significant audit findings – unsupported, questioned, or disallowed costs in an amount in
excess of $10 million, or other significant findings – as part of the Semiannual Report to the Congress. During this report-
ing period, the OIG issued no contract review reports that met this requirement.




72 Semiannual Report to the Congress
                  Appendix V–Audits Without Management Decision



Section 5(a)(10) of the IG Act, as amended, requires a summary of each audit report issued before the commence-
ment of the reporting period for which no management decision has been made by the end of the reporting period.
GSA has a system in place to track audit reports and management decisions. Its purpose is to ensure that recom-
mendations and corrective actions indicated by the OIG and agreed to by management are addressed as efficiently
and expeditiously as possible. This period there is one OIG report that meets this requirement.


  Postaward Audit Report on Direct Costs Incurred on Trilogy Project:
  Computer Sciences Corporation, Task Order Number T0001AJM026,
  Under GSA Millennia Contract Number GS00T99ALD0204, issued
  December 29, 2008
  This audit was requested by the GSA Federal Systems Integration and Management Center (FEDSIM) on
  behalf of the Federal Bureau of Investigation (FBI). In 2001, the FBI initiated the Trilogy program to modernize
  its information technology infrastructure and systems. To expedite the contracting process, the FBI entered
  into an interagency agreement with GSA to support the FBI’s use of the FEDSIM Millenia contract for imple-
  mentation of the Trilogy program. The task order was awarded in May 2001 to Computer Sciences Corporation
  (CSC). In February 2006, the Government Accountability Office (GAO) issued a report identifying questionable
  costs billed on task orders issued under the Trilogy program. The OIG coordinated with the Defense Contract
  Audit Agency (DCAA) to perform an audit. The audit objectives were to determine if any of the direct costs
  identified as a result of the GAO report were unallowable, unallocable, or unreasonable and whether the audit
  results could be used as the basis to pursue remedies to recoup funds and assess penalties. DCAA, in its
  audit of CSC and its seven subcontractors, took exception to $14.95 million of the $120.8 million in direct costs
  incurred and billed under the task order. CSC and the subcontractors did not concur with the majority of the
  costs questioned by DCAA. To reach a management decision, the contracting officer will continue to assess,
  with the many parties involved, the issues raised by the contractor and subcontractors in their rebuttal to the
  DCAA audit report.




                                                                                 April 1, 2009 – September 30, 2009 73
                                   Appendix VI–Deliquent Debts



The GSA Office of the Chief Financial Officer provided the following information.

The GSA Office of the Chief Financial Officer (OCFO)        In addition to reviews, reconciliations, follow-up emails
has continued to implement and initiate actions to          and phone calls, OCFO continues to issue consistent
improve our debt collection efforts and reduce the          and timely delinquency notices and increase efforts to
amount of debt written off as uncollectible for GSA.        identify invoice offsets on amounts due to commercial
Management has continued to place a high priority on        vendors on other contracts. These efforts are designed
resolving delinquent accounts receivable.                   to promote faster claim resolution.

Coordination efforts between regional contracting           In accordance with OMB Circular A-129, GSA continues
officers, realty specialists,    Treasury claims cross-     to write off uncollected claims over two years old;
servicing personnel, and the recovery auditors continue     however, written off claims due from debtors for which
to strengthen our delinquent receivables and claim          Treasury has a Taxpayer Identification Number or Social
collection efforts. Receivables and claims continue to be   Security Number remain in Treasury’s Off-set Program
reduced through routine follow-up of delinquencies.         (TOP) for up to ten years for collection. GSA’s OCFO
Also, delinquent and aged receivable reports are being      continues to place a high priority on resolving delinquent
distributed to field office personnel and regional          accounts receivable and claims.
management. Aged receivables are elevated to regional
financial managers and senior level managers for action
and resolution.




Non-Federal Accounts Receivable

                                             As of                       As of
                                         March 31, 2009            September 30, 2009               Difference

     Amounts Due GSA                       $144,634,557                $163,835,958               ($19,201,401)

     Amounts Overdue                        $12,880,763                 $12,952,550                    ($71,787)

     Amounts Written Off                                                 $2,339,471




From April 1, 2009 to September 30, 2009, the Office of     Administrative offsets have resulted in additional
Financial Policy and Operations referred $3,817,861         collections of $13,136,403. GSA also collected non-
delinquent non-Federal claims to the U.S. Department of     Federal claims using Pre-Authorized Debits (PADS)
the Treasury for cross-servicing collection activities.     totaling $38,268.
Collections on non-Federal claims were $269,765,869.




74 Semiannual Report to the Congress
                                     Appendix VII–Reporting Requirements



The table below cross-references the reporting                                     in Senate Report No. 96-829 relative to the 1980
requirements prescribed by the Inspector General Act of                            Supplemental Appropriations and Rescission Bill and
1978, as amended, to the specific pages where they are                             the National Defense Authorization Act is also cross-
addressed. The information requested by the Congress                               referenced to the appropriate page of the report.


Requirement                                                                                                                                         Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . . 2–25

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2–25

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
       Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(6) – List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

     Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . . . 2–25

     Section 5(a)(8) – Statistical Tables on Management Decisions on
       Questioned Costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

     Section 5(a)(9) – Statistical Tables on Management Decisions on
       Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46

     Section 5(a)(10) – Summary of Audit Reports Issued Before the Commencement
       of the Reporting Period for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . 73

     Section 5(a)(11) – Description and Explanation for Any Significant
       Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(12) – Information on Any Significant Management
       Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74

  National Defense Authorization Act

     Public Law 104-106, 5 U.S.C. app. 3, § 5 note . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68

     Public Law 110-181 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72



                                                                                                                 April 1, 2009 – September 30, 2009 75
                             Appendix VIII–OIG Offices and Key Officials



  Office of the Inspector General
  Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
  Deputy Inspector General, Robert C. Erickson . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
  Director of Communications and Congressional Affairs, Dave Farley . . . . . . . . . . . . . . . . . . (202) 219-1062

  Office of Counsel to the Inspector General
  Counsel to the IG, Richard Levi (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1932

  Office of Internal Evaluation and Analysis
  Director, Peter J. Coniglio (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0468
  Office of Forensic Auditing, Director Patricia D. Sheehan . . . . . . . . . . . . . . . . . . . . . . . . . . (703) 603-0193

  Office of Audits
  Assistant IG for Auditing, Theodore R. Stehney (JA). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0374
  Principal Deputy Assistant IG for Auditing, Regina M. O’Brien (JAD) . . . . . . . . . . . . . . . . . . (202) 501-0374
  Director, Audit Planning, Policy, and Operations Staff, Lisa Blanchard (JAO) . . . . . . . . . . . (202) 501-4865
  Director, Administration and Data Systems Staff, Thomas P. Short (JAS) . . . . . . . . . . . . . . (202) 501-1366
  Director, Special Projects, Paul J. Malatino (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 208-0021

  Deputy Assistant Inspectors General for Auditing
  Information Technology Audit Office, Gwendolyn A. McGowan (JA-T) . . . . . . . . . . . . . . . . (703) 308-1223
  Real Property Audit Office, Rolando N. Goco (JA-R) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-2322
  Finance & Administrative Audit Office, Jeffrey C. Womack (JA-F) . . . . . . . . . . . . . . . . . . . . (202) 501-0006
  Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . . . . . . . . (703) 603-0189
  Contract Audit Office, James M. Corcoran (JA-C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4846

  Regional Inspectors General for Auditing
  National Capital Region Field Office, Barbara E. Bouldin (JA-W) . . . . . . . . . . . . . . . . . . . . . (202) 708-5340
  Northeast and Caribbean Field Office, Howard R. Schenker (JA-2) . . . . . . . . . . . . . . . . . . . (212) 264-8620
  Mid-Atlantic Field Office, Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4840
  Southeast Sunbelt Field Office, James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5125
  Great Lakes Field Office, David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7781
  The Heartland Field Office, John F. Walsh (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7052
  Greater Southwest Field Office, Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2571
  Pacific Rim Field Office, James P. Hayes (JA-9). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2744


76 Semiannual Report to the Congress
                          Appendix VIII–OIG Offices and Key Officials



Office of Investigations
Assistant IG for Investigations, Gregory G. Rowe (JI) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1397
Deputy Assistant IG for Investigations, Geoffrey A. Cherrington (JID) . . . . . . . . . . . . . . . . . (202) 501-1397
Director, Investigations Operations Division, Randal A. Stewart (JIB). . . . . . . . . . . . . . . . . . (202) 501-4583

Special Agents in Charge (SAC)
Mid-Atlantic Regional Office, SAC Christopher P. Cherry (JI-W). . . . . . . . . . . . . . . . . . . . . . (202) 252-0008
  Philadelphia Resident Office, Assistant SAC James E. Adams (JI-3) . . . . . . . . . . . . . . . . (215) 861-3550
Northeast and Caribbean Regional Office, SAC Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . . (212) 264-7300
  Boston Resident Office, Assistant SAC Luis A. Hernandez (JI-1) . . . . . . . . . . . . . . . . . . . (617) 565-6820
Southeast Regional Office, SAC Lee P. Quintyne (JI-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5126
  Miami Resident Office, SA Dietrich Bohmer (JI-4M). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (954) 356-6993
Central Regional Office, SAC Stuart G. Berman (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7779
Mid-West Regional Office, SAC John F. Kolze (JI-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7214
  Denver Resident Office, SA Christopher C. Hamblen (JI-8) . . . . . . . . . . . . . . . . . . . . . . . . (303) 236-5072
Southwest Regional Office, SAC Paul W. Walton (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2589
Western Regional Office, Vacant (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2755
  Los Angeles Resident Office, SA Tony Wu (JI-9L) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (949) 360-2214
Northwest Regional Office, SAC Terry J. Pfeifer (JI-10) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (253) 931-7654

Office of Administration
Assistant IG for Administration, Carolyn Presley-Doss (JP) . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-4638
Deputy Assistant IG for Administration (Acting), Richard Parker (JP) . . . . . . . . . . . . . . . . . . (202) 501-1641
Budget, Planning, and Financial Management Division, Director Kristin Sneed (JPB) . . . . . (202) 208-4198
Facilities and Contracts Division, Team Leader Carol Mulvaney (JPFC) . . . . . . . . . . . . . . . (202) 501-3119
Human Resources Division, Director (Acting), Deborah Bell (JPH). . . . . . . . . . . . . . . . . . . . (202) 501-0360
Information Technology Division, Director Michael McLaughlin (JPM) . . . . . . . . . . . . . . . . . (202) 219-2319




                                                                                                 April 1, 2009 – September 30, 2009 77
                                       Notes




78 Semiannual Report to the Congress
Notes




        April 1, 2009 – September 30, 2009 79
                                       Notes




80 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsaig.gov/hotline.htm

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsaig.gov
